<html>
<title> - U.S. UNMANNED AIRCRAFT SYSTEMS: INTEGRATION, OVERSIGHT, AND COMPETITIVENESS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                    U.S. UNMANNED AIRCRAFT SYSTEMS:
                        INTEGRATION, OVERSIGHT, AND 
                               COMPETITIVENESS

=======================================================================

                                (113-84)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 10, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
         committee.action?chamber=house&committee=transportation
         
                                _____________
                                
                                
                                
                          U.S. GOVERNMENT PUBLISHING OFFICE
91-735 PDF                    WASHINGTON : 2015                          
         
 _______________________________________________________________________________________        
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  
       
         
         
         
         
         
         
         
         
         
         
         
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
                                ------                                7

                        Subcommittee on Aviation

                FRANK A. LoBIONDO, New Jersey, Chairman
THOMAS E. PETRI, Wisconsin           RICK LARSEN, Washington
HOWARD COBLE, North Carolina         PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee       EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 MICHAEL E. CAPUANO, Massachusetts
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
PATRICK MEEHAN, Pennsylvania         ANDREE CARSON, Indiana
RICHARD L. HANNA, New York           RICHARD M. NOLAN, Minnesota
DANIEL WEBSTER, Florida              DINA TITUS, Nevada
JEFF DENHAM, California              SEAN PATRICK MALONEY, New York
REID J. RIBBLE, Wisconsin            CHERI BUSTOS, Illinois
THOMAS MASSIE, Kentucky              CORRINE BROWN, Florida
STEVE DAINES, Montana                ELIZABETH H. ESTY, Connecticut
ROGER WILLIAMS, Texas                NICK J. RAHALL, II, West Virginia
MARK MEADOWS, North Carolina           (Ex Officio)
RODNEY DAVIS, Illinois, Vice Chair
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................    19
Matthew E. Hampton, assistant inspector general for aviation, 
  U.S. Department of Transportation..............................    19
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, U.S. Government Accountability Office..................    19
Captain Lee Moak, president, Air Line Pilots Association, 
  International..................................................    19
Jesse Kallman, head of business development and regulatory 
  affairs, Airware...............................................    19
Nicholas Roy, Ph.D., associate professor of aeronautics and 
  astronautics, Massachusetts Institute of Technology............    19

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Margaret Gilligan:

    Prepared statement...........................................    55
    Answers to questions for the record from the following 
      Representatives:

        Hon. Frank A. LoBiondo, of New Jersey....................    64
        Hon. John J. Duncan, Jr., of Tennessee...................    66
        Hon. Eric A. ``Rick'' Crawford, of Arkansas..............    68
        Hon. Richard L. Hanna, of New York.......................    69
        Hon. Eleanor Holmes Norton, of the District of Columbia..    71
Matthew E. Hampton:

    Prepared statement...........................................    73
    Answers to questions for the record from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................    86
Gerald L. Dillingham, Ph.D.:

    Prepared statement...........................................    88
    Answers to questions for the record from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................   110
Captain Lee Moak, prepared statement.............................   114
Jesse Kallman:

    Prepared statement...........................................   124
    Answer to question for the record from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................   128
Nicholas Roy, Ph.D.:

    Prepared statement...........................................   133
    Answers to questions for the record from Hon. Frank A. 
      LoBiondo, a Representative in Congress from the State of 
      New Jersey.................................................   137

                       SUBMISSION FOR THE RECORD

Hon Rick Larsen, a Representative in Congress from the State of 
  Washington, request to submit the written statement of Lillian 
  Z. Ryals, senior vice president, The MITRE Corporation, and 
  general manager, MITRE's Center for Advanced Aviation System 
  Development....................................................     5

                        ADDITIONS TO THE RECORD

Aircraft Owners and Pilots Association, written statement of Mark 
  Baker, president...............................................   140
Modovolate Aviation, LLC, joint written statement of Henry H. 
  Perritt, Jr., chief executive officer, and Eliot O. Sprague, 
  chief operating officer........................................   144
National Agricultural Aviation Association, written statement of 
  Andrew D. Moore, executive director............................   149
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 



                    U.S. UNMANNED AIRCRAFT SYSTEMS:



                      INTEGRATION, OVERSIGHT, AND


                          COMPETITIVENESS

                              ----------                              


                      WEDNESDAY, DECEMBER 10, 2014

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Frank A. 
LoBiondo (Chairman of the subcommittee) presiding.
    Mr. LoBiondo. Good morning. The committee will come to 
order. I would like to ask unanimous consent that members not 
on the committee, in addition to members not on the 
subcommittee, be permitted to sit with the subcommittee at 
today's hearing--there is a great deal of interest--and offer 
testimony and ask questions. Without objection, so ordered.
    I would like to thank all of you for being here. The United 
States has been the global leader in aviation. We are all very 
proud of that. And American leadership in aerospace, 
manufacturing, air transportation, flight safety and 
technological innovation is tremendous. The aviation industry 
contributes billions of dollars to our economy, supports 
millions of jobs throughout our country, and is a source of 
pride for all Americans.
    Unmanned aerial systems, or UAS, have been increasingly in 
the news, but they're not truly new. It has been almost 100 
years since the U.S. military began developing the first UAS. 
Like other new technologies, UAS offers both exciting 
opportunities and daunting challenges.
    The previous FAA reauthorization law contained provisions 
directing the FAA to take steps towards safely integrating UAS 
into our Nation's airspace by September 2015. Among other 
things, we directed the FAA to create test sites and 
regulations for UAS. The results so far appear to be mixed, and 
I look forward to hearing from our witnesses today on the FAA's 
efforts.
    There are many issues surrounding UAS we need to consider; 
first and foremost, and has always been, safety. Our Nation's 
safety record is the result of decades of hard work by 
thousands and also some hard lessons learned. Safety is the 
cornerstone of the U.S. aviation industry, and without it, the 
UAS industry cannot succeed, period. Thus, I am very concerned 
when I read in the Washington Post that the FAA is receiving 
about 25 reports each month from pilots about UAS flying too 
close to their aircraft, sometimes even near major airports.
    Protecting privacy is equally important as we further 
integrate and deploy UAS, whether by individual hobbyists or in 
commercial applications. I know the FAA and aviation industry 
are taking the issue very seriously, and Congress will continue 
to be actively engaged.
    We can all agree that UAS represents a tremendous economic 
opportunity. The FAA estimates that $89 billion to $90 billion 
will be invested globally in UAS over the next 10 years and 
major U.S. companies have begun investing in UAS technology in 
a major way. There are many valuable applications in real 
estate, agriculture, medical transport, and infrastructure 
maintenance, with many more on the horizon.
    It is not hard to imagine UAS making existing industries 
more efficient and giving rise to entirely new ones. All of 
this could mean new jobs and vast economic opportunities for 
the American people if we do this right. So it also concerns me 
when I read in The Wall Street Journal about major U.S. 
companies taking their UAS research and development activities 
to foreign countries, such as Canada and Australia, because FAA 
regulations are too burdensome and too slow.
    It also concerns me that the road builders in Germany and 
farmers in France today are enjoying economic benefits from UAS 
because safety regulators there have found ways to permit such 
flights.
    I can't help but wonder that if the Germans, the French and 
the Canadians do some of these things today, then why can't we 
also be doing them? Are they smarter than us? I don't think so. 
Are they better than us? I don't think so. So we really need 
these questions answered. I hope to get a better understanding 
of this issue during today's hearing.
    As I said earlier, safety is paramount and the challenges 
are difficult, but if there is a country that is up to the 
challenge of safe UAS integration, it is certainly the United 
States of America. We have the very best engineers, the 
smartest inventors, the most creative minds, and the 
knowledgeable regulators to ensure American leadership in 
aviation in the decades ahead. I know this, because many of our 
best and brightest minds in aviation work at the FAA's 
Technical Center flagship, which is in my district. The FAA 
Tech Center is a one-stop shop for the best and brightest to 
research, develop, demonstrate, and validate new aviation 
technologies and data sources. It has had a role in many 
advances in flight safety, including air traffic control, which 
is key to safe UAS integration. It is a place where new ideas 
are developed and old ones are improved. Work on UAS is 
underway there already, and I fully expect their contributions 
will continue and they will be invaluable.
    I am interested in hearing today where we are in terms of 
the UAS industry and what lies ahead, what progress the 
Government has or hasn't made, and what industry and FAA need, 
and how we in Congress can help as we consider the next FAA 
reauthorization bill.
    And I talked with Mr. Larsen and members of the committee 
and Chairman Shuster, we are really looking at this very 
closely, because as we prepare the next FAA authorization bill, 
we are going to be looking for substantial improvements and 
advancements in this particular area, and we will be looking at 
specific language, if necessary, if we don't see these advances 
in a timely way.
    I look forward to hearing from our witnesses on these 
topics and thank them for joining us today.
    Before I recognize my colleague, Mr. Larsen, for his 
comments, I would like to ask unanimous consent that all 
Members have 5 legislative days to revise and extend their 
remarks and include extraneous material for the record for this 
hearing. Without objection, so ordered.
    I would now like to yield to Mr. Larsen for his opening 
remarks.
    Mr. Larsen. Thank you, Chairman LoBiondo, for calling 
today's hearing on the U.S. unmanned aircraft systems 
integration oversight and competitiveness. I appreciate you 
holding this hearing at my request. And safety is and must be 
the FAA's number one priority, certainly is mine, I know it is 
yours as well.
    We have looked at unmanned aircraft systems, or UAS, twice 
earlier this year, but last week's report of numerous near 
collisions between UAS and manned aircraft are a stark reminder 
that the FAA must be prepared to ensure UAS operations are 
safe, both for those in the air and people on the ground, so 
this hearing is timely.
    The UAS industry has great potential to drive economic 
growth and create jobs, including in Washington State, where I 
am from, and which is an epicenter of aviation R&D; however, 
there is no doubt there are some near-term challenges. For 
example, the FAA says it receives about 25 reports each month 
from pilots who've seen unmanned aircraft or model aircraft 
operating near their aircraft, including some near collisions.
    But we rise to challenges; we do not shrink from them. And 
I want you to consider these headlines with cautionary tales. 
``Planes crash in air, man killed.'' That is from the Wyoming 
State Tribune. ``Two killed in a crash in air,'' Trenton 
Evening Times. ``Crash in air kills two.'' ``Pilots die when 
two machines collide in practice flight.'' That is the 
Oregonian. All these headlines are from 1917, 1917 and 1920. I 
found more than 80 stories of this kind alone all written 
before 1921.
    These reports could have caused the American public to give 
up on developing things that fly, what they used to call 
machines, now we call airplanes, but we didn't. Had we given up 
on commercial air travel then, we would not have the safe and 
efficient passenger airline system that we have today. So while 
near collision headlines reflect undeniable challenges that 
must be addressed, we have to keep moving forward to ensure 
progress and competitiveness, but let's be clear: integration 
of UAS must never come at the expense of safety. So to help 
guide this effort, the last authorization set forth specific 
requirements and milestones for the FAA to safely integrate UAS 
into the national airspace. We have heard a number of concerns 
from industry that FAA's not moving quickly enough.
    The Department of Transportation inspector general reported 
in June that FAA had completed work toward nine of the 
milestones in the act, but that agency was--but that the agency 
was behind schedule on remaining milestones. The bill required 
the FAA to publish a rule on small UAS by August, August 14th 
of this year. We expect that rule soon. The bill also required 
the FAA to establish six test ranges for UAS research; however, 
while these test ranges are up and running, we continue to hear 
from stakeholders that those test ranges are not being utilized 
as much as they can be.
    However, given the magnitude of the safety implications of 
incorporating this technology into our sophisticated and 
crowded airspace, we have to give credit where credit is due, 
and the FAA is proceeding with caution and is making some 
progress. For example, section 333 of the act gave the FAA 
authority to authorize certain UAS operations on an interim 
basis in advance of the final rule on small UAS. The FAA is 
just beginning using this authority and has granted several 
exemptions, including some this morning. We must ensure, 
though, that the agency allows prudent testing and operations 
to begin safely, even if on a limited basis.
    We have also heard concerns from other countries--that 
other countries afford more flexible environments to test and 
operate UAS. So while we must hold safety paramount, we do not 
want to fall needlessly behind.
    Privacy is another major concern that must be addressed, 
and I share the public's concern about implications of aerial 
surveillance from UAS operators, and work to ensure these 
concerns are addressed through the proper channels.
    Within the past 2 years, we have seen the FAA make progress 
on implementing NextGen capabilities, with the strong 
bipartisan support of this subcommittee and the leadership of 
Chairman LoBiondo. Our work on NextGen shows us the absolute 
necessity of FAA's collaboration with stakeholders, especially 
pilots and air traffic controllers, who will be directly 
affected by new technologies.
    Our goal with regard to UAS integration should be to keep 
safe integration on track so that we are not here in 2024 
talking about a plan to integrate UAS into the airspace.
    Finally, Mr. Chairman, I would just like to ask unanimous 
consent to enter the written remarks from MITRE into the 
record. MITRE is engaged in research and development for the 
FAA, and its input is critical as we look towards 
reauthorization.
    Mr. LoBiondo. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILALBE IN TIFF FORMAT] 
    
    Mr. Larsen. Thank you, Mr. Chairman. I look forward to 
hearing from all our panelists about why we are here today, 
what we can do to keep the integration of UAS on track and to 
ensure safety. Thank you.
    Mr. LoBiondo. Very pleased to welcome the chairman of the 
full committee, Mr. Bill Shuster, and thank him for his 
tremendous interest and involvement in this issue and the FAA 
authorization bill. Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Chairman. And I am going to 
start off by saying welcome to our panelists here today. We are 
interested in hearing your testimony and your views on this 
issue, but I share Mr. Lobiondo's views on safety. Safety in 
our skies is simply paramount. That has to be first and 
foremost to us. So we in Congress are very interested in UAS.
    In the last FAA bill, we directed the FAA to safely 
integrate that into our airspace by September 2015, but the UAS 
industry cannot develop unless it is proven safe. And based on 
the opening statements by the chairman and the ranking member, 
Republicans and Democrats are united in our views about the 
priority and importance of safety.
    We also understand that UAS are an exciting technology with 
the potential to transform parts of our economy. I am intrigued 
by how UAS might improve our modes of transportation. For 
example, the UAS might be used for certain kinds of bridge 
inspections without closing lanes, for traffic stopping, or 
requiring workers to have to climb up to high places to do 
inspection. And the UAS, I am told, can survey 180 acres of 
land in less than an hour during construction projects.
    UAS can safely help us get more bang out of the taxpayers' 
buck on infrastructure projects, and with that in mind, it is 
our responsibility to look at this and take a close look at 
this technology.
    I know there are some challenges to getting this right. I 
am confident that the American inventors, engineers and 
entrepreneurs are up to the challenge to ensure the United 
States retains its lead in aviation technology. As we work 
towards safe integration of UAS, we cannot let a few 
irresponsible individuals jeopardize the safety of the many and 
set back a potentially promising technology.
    So I am glad you are all here today. And thank you for 
holding this hearing, Mr. Chairman, and I yield back.
    Mr. LoBiondo. OK. Thank you, Mr. Shuster.
    I want to thank our distinguished panel of witnesses today. 
Our first panel will include Ms. Peggy Gilligan, Associate 
Administrator for Aviation Safety to the Federal Aviation 
Administration, essentially all things UAS; Mr. Matthew 
Hampton, assistant inspector general for aviation for the U.S. 
Department of Transportation, Office of the Inspector General; 
Dr. Gerald Dillingham, Director of Physical Infrastructure 
Issues for the U.S. Government Accountability Office; Captain 
Lee Moak, who is president of Air Line Pilots Association, 
International; Mr. Jesse Kallman, head of business development 
and regulatory affairs for Airware; and Dr. Nicholas Roy, 
associate professor of aeronautics and astronautics at the 
Massachusetts Institute of Technology.
    And, Ms. Gilligan, you are recognized. We welcome your 
remarks.

  TESTIMONY OF MARGARET GILLIGAN, ASSOCIATE ADMINISTRATOR FOR 
 AVIATION SAFETY, FEDERAL AVIATION ADMINISTRATION; MATTHEW E. 
    HAMPTON, ASSISTANT INSPECTOR GENERAL FOR AVIATION, U.S. 
  DEPARTMENT OF TRANSPORTATION; GERALD L. DILLINGHAM, PH.D., 
   DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, U.S. GOVERNMENT 
 ACCOUNTABILITY OFFICE; CAPTAIN LEE MOAK, PRESIDENT, AIR LINE 
   PILOTS ASSOCIATION, INTERNATIONAL; JESSE KALLMAN, HEAD OF 
   BUSINESS DEVELOPMENT AND REGULATORY AFFAIRS, AIRWARE; AND 
  NICHOLAS ROY, PH.D., ASSOCIATE PROFESSOR OF AERONAUTICS AND 
      ASTRONAUTICS, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Ms. Gilligan. Thank you, Chairman LoBiondo, Congressman 
Larsen, and Chairman Shuster for the opportunity to appear 
before the subcommittee to discuss unmanned aircraft systems, 
or what we know as UAS.
    In the FAA Modernization and Reform Act of 2012, Congress 
mandated the safe and efficient integration of UAS into the 
National Airspace System. Administrator Huerta, in announcing 
his strategic initiatives, identified integration of UAS and 
commercial space operations into the NAS one of his top 
priorities, and we are working hard to meet those mandates.
    In the act, Congress mandated that the Secretary of 
Transportation consult with Government partners and industry 
stakeholders to develop a comprehensive plan and 5-year roadmap 
for UAS integration. Both documents have been published, and 
outline the path ahead for UAS.
    As called for in the statute, these documents set out a 
phased approach that must be carried out thoughtfully to ensure 
safety is not compromised.
    Consistent with congressional direction, we announced six 
UAS sites to aid in UAS integration. As required, we set out to 
have one test site operational within 6 months of selection. We 
surpassed that goal, with the first test site operational 
within 4 months and three more sites operational within 6 
months of their selection. Now all six UAS sites are fully 
operational and have established their research agendas. The 
data and information from the test sites will help answer key 
questions about how unmanned aircraft systems interface in the 
airspace as well as with air traffic control.
    The FAA Technical Center in Atlantic City is playing a key 
role in data collection and analysis, and will continue to make 
significant contributions to UAS integration as we work closely 
with the test sites to identify the data that will be the most 
useful to the FAA.
    We are moving forward with UAS integration through 
rulemaking. As mandated by the act, the FAA initiated 
rulemaking to permit civil operation of small UAS in the 
airspace. We all agree that that project is taking too long, 
but I am pleased to say that we believe we now have a balanced 
proposal that is currently under executive review.
    In the meantime, and consistent with the act, we are 
looking at activities that do not pose a risk to others who 
operate in the airspace, to the general public, or to national 
security, and that can be operated safely without an 
airworthiness certificate. Once the Secretary of Transportation 
is able to make that determination, FAA then grants relief from 
other FAA operating regulations. We have authorized 11 
operators, including five exemptions that we have issued today, 
to conduct commercial UAS activity in the national airspace, 
covering activities such as surveying, inspection and movie 
making.
    We continue to facilitate the use of UAS by public 
entities. For more than two decades, FAA has authorized the use 
of unmanned aircraft for important safety missions such as 
firefighting and border security. Working closely with the 
Departments of Defense and Homeland Security and other 
agencies, we are taking advantage of the extensive Federal 
investment that has been made in these systems.
    In addition, more than 35 law enforcement agencies now 
operate unmanned aircraft under certificates of authorization, 
and we are also working with law enforcement agencies to 
address the unauthorized use of UAS, for they are often in the 
best position to help us deter, detect, and investigate such 
activities.
    We are working hard to educate the public about the 
requirements for operating UAS in the national airspace, and we 
believe opportunities like this will help us in that endeavor, 
but that has proven to be a challenge. Unlike traditional 
manned aircraft, unmanned aircraft are widely available for 
purchase by individuals who may not realize that they are 
entering the National Airspace System or that they must comply 
with FAA regulations. They may not appreciate the significant 
safety risk that is presented by unauthorized or unsafe UAS 
operations in the national airspace.
    Just as you directed in the 2012 Act, FAA can and will take 
enforcement action against anyone who operates a UAS in a way 
that endangers the safety of the national airspace, but we 
continue to lead with education, because we believe the vast 
majority of UAS operators want to comply with FAA regulation.
    We remain committed to serve as world leaders in this 
segment of the aviation industry. The United States is proud to 
lead the Remotely Piloted Aircraft Systems Panel recently 
formed by the International Civil Aviation Organization. The 
U.S. will be leading the way to establish standards and 
recommended practices, procedures, and guidance materials to 
facilitate the safe integration of remotely piloted aircraft 
systems around the world. Together with our international 
partners, we will facilitate integration at the international 
level while continuing to lead the world in aviation safety.
    Mr. Chairman, this concludes my testimony. I look forward 
to answering your questions.
    Mr. LoBiondo. OK. Thank you very much.
    Mr. Hampton.
    Mr. Hampton. Chairman Shuster, Chairman LoBiondo, Ranking 
Member Larsen, and members of the subcommittee, thank you for 
inviting me to testify today on FAA efforts to integrate 
unmanned aircraft systems, or UAS, into the National Airspace 
System.
    The increasing demand for UAS systems has enormous economic 
and competitive implications for our Nation. As you know, the 
FAA Modernization and Reform Act was a catalyst for UAS 
technology. The act directed FAA to take steps to advance UAS 
integration, with the goal of safely integrating UAS technology 
by 2015.
    In June, we reported on FAA efforts and made 11 
recommendations specifically aimed at helping FAA to more 
effectively meet the act's goals.
    My testimony today will focus on FAA's progress in 
implementing the act's provisions and the challenges the agency 
faces in safely integrating UAS technology.
    To date, FAA has completed more than half of the 17 UAS 
requirements in the act. This includes selecting the test sites 
as well as publishing a roadmap outlining agency plans. In 
addition, using the authority granted in the act, FAA recently 
authorized 11 companies to operate UAS in commercial 
operations. However, FAA is behind schedule on the act's 
remaining requirements, many of which are key to advancing UAS 
integration. For example, FAA missed the act's August 2014 
deadline for issuing a final rule on small UAS systems. These 
are systems weighing less than 55 pounds.
    While FAA expects to issue a proposed rule soon, it will 
likely generate a significant amount of public comment that the 
agency will need to consider before issuing a final rule. As an 
result, it is uncertain when a final rule will be published. 
Ultimately, FAA will not meet the act's overarching goal to 
safely integrate UAS technology by September 2015.
    As FAA works to implement the act's provisions, the agency 
also faces significant technological, regulatory, and 
management challenges. On the technological front, the 
evolution of detect and avoid technology is paramount. Also, 
the risk of loss link scenarios, when an operator loses 
connectivity with an unmanned aircraft, remains high. 
Furthermore, establishing secure radio frequency spectrum to 
support UAS communications has also proven difficult to 
address.
    FAA, DOD and NASA have several important research projects 
underway, but it remains unclear when the technology will be 
robust enough to support safe UAS operations.
    Regulatory challenges have also affected progress to date. 
Also FAA has authorized limited UAS operations on a case-by-
case basis, it is not yet positioned to certify civil UAS 
operations on a large scale.
    FAA has worked with a special advisory committee for more 
than 9 years, but has not yet reached consensus with 
stakeholders on minimum performance and design standards for 
UAS technology. Much work remains to set requirements for pilot 
and crew qualifications, ground control stations, and 
communication links for UAS systems.
    Finally, I would like to turn to challenges in areas that 
need significant management attention. FAA lacks the training, 
tools and procedures air traffic controllers need to manage UAS 
operations. FAA also lacks standard databases to collect and 
analyze safety data from current UAS operators and a severity-
based classification system for incident reporting. Data from 
FAA's UAS test sites will provide critical information related 
to certification, air traffic control, and detect-avoid 
technologies I discussed earlier. All of these can inform FAA's 
decisions and advance progress.
    Other important and much needed steps include publication 
of the small UAS rule and developing an integrated budget 
document that clearly identifies funding requirements in the 
near and mid term.
    In conclusion, UAS will be and remain a front and center 
issue that requires significant management attention. It 
remains uncertain when and at what pace UAS technology can be 
fully and safely integrated into our airspace. Now is the time 
for FAA to build on the knowledge base to make informed 
decisions, set priorities, identify critical path issues, and 
develop the basic regulatory framework for integrating UAS 
technology into the National Airspace System. We will continue 
to monitor FAA's progress on these issues and keep the 
subcommittee apprised of our efforts.
    Mr. Chairman, this concludes my prepared statement. I will 
be happy to answer any questions you or other members of this 
subcommittee may have.
    Mr. LoBiondo. Thank you, Mr. Hampton. That is--wow. OK. We 
will leave it at that for right now.
    Dr. Dillingham.
    Dr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Larsen, Chairman Shuster, members of the subcommittee.
    My statement this morning is based on our ongoing work for 
this subcommittee and focuses on three areas: First, FAA's 
progress towards meeting the unmanned aerial systems provisions 
of the 2012 FAA Reauthorization Act; second, key research and 
development activities needed to support unmanned systems 
integration; and third, how other countries have progressed 
towards integrating unmanned systems into their airspace.
    Regarding the provisions of the 2012 Act, the act included 
17 specific provisions for FAA to achieve safe unmanned systems 
integration by September 2015. While FAA has completed most of 
these provisions, key ones remain and additional actions are 
needed to effectively leverage the completed provisions for the 
integration effort. For example, a critical step for allowing 
commercial operations is the publication of a final rule. To 
develop the rule, FAA must publish a notice of proposed 
rulemaking; however, as you have heard, the NPRM has been 
significantly delayed. Given the time that is generally 
required for rulemaking and the tens of thousands of comments 
expected on this NPRM, the consensus of opinion is that the 
integration of unmanned system will likely slip from the 
mandated deadline of September 2015 until 2017 or even later.
    The delay in the final rule, which will establish 
operational and certification requirements, could contribute to 
unmanned systems continuing to operate unsafely and illegally, 
and lead to additional enforcement activities for FAA's scarce 
resources. Additionally, without a small unmanned systems rule, 
U.S. businesses may continue to take their testing and research 
and development activities outside of the U.S.
    Regarding research and development activities, the key 
technology issues remain essentially the same as they have been 
since the beginning of the unmanned systems era, including 
detect and avoid, command and control, air worthiness, and 
spectrum issues. There are a wide range of stakeholders 
involved in addressing these issues and there has been some 
notable progress, including the establishment of the test 
sites; however, in spite of the progress in research and 
development, the role of the six test sites remains unclear.
    The designation and operational startup of the six test 
sites, viewed by many as a major step forward in acquiring the 
necessary data to address the technological and operational 
challenges associated with integration. Our preliminary work 
suggests that this development has not lived up to its promise. 
The test site operators told us that they were significantly 
underutilized by FAA and the private sector and that they were 
unclear as to what research and development and operational 
data was needed by FAA to support the integration initiatives.
    However, our preliminary work suggests that FAA has 
provided some guidance to the test sites regarding the needed 
research and development and data needs. FAA officials said 
that Federal law prevents them from asking the test sites for 
specific data. According to FAA, the law does not allow the 
agency to give directions to the site or accept voluntary 
services without payment. As we continue our study, we will be 
trying to better understand the relationship between the test 
sites, FAA, and the needed research and development and how the 
test sites can achieve their highest and best use.
    Regarding developments in foreign countries, as is the case 
in the U.S., many countries around the world allow commercial 
operations under some restrictions. Also similar to the U.S., 
foreign countries are experiencing problems with illegal and 
unsafe unmanned systems operations; however, a 2014 MITRE study 
and our preliminary observations have revealed that several 
countries, including Japan, Australia, the United Kingdom and 
Canada have progressed farther than the United States with 
regulations supporting commercial operations for small unmanned 
vehicles, but the regulations governing unmanned systems are 
not consistent worldwide. Some countries, such as Canada, are 
easing operating restrictions through a risk management 
approach, while other countries, such as India, are increasing 
unmanned systems restrictions. Our ongoing study for this 
subcommittee will look further at the experiences of other 
countries for potential lessons learned for the United States.
    Mr. Chairman, Ranking Member Larsen, and members of the 
subcommittee, thank you for the opportunity to speak with you 
today.
    Mr. LoBiondo. Thank you, Dr. Dillingham.
    Captain Moak.
    Mr. Moak. Thank you, Chairman LoBiondo, Ranking Member 
Larsen, and members of the subcommittee for the opportunity to 
provide our perspectives on the critical importance of safely 
integrating unmanned aircraft systems into the National 
Airspace System.
    Our country's national airspace is the most dynamic and 
diverse on the planet, and also I want to underscore this, the 
safest. We need to protect it and maintain it to deliver the 
safest, most efficient air transportation possible.
    UAS and remotely piloted aircraft systems include aircraft 
ranging in the size from a small bird to as large as an 
airliner. Some UAS aircraft are operating completely 
autonomously. Their flight route is computer-programmed and the 
device operates without a pilot. Other UAS aircraft are flown 
remotely by pilots from an operational center or control 
stations that can be located at the launch and recovery site or 
perhaps thousands of miles away.
    ALPA supports the safe use of unmanned aircraft systems. We 
recognize the potential benefit to our Nation's economic 
competitiveness, but we also recognize the potential for a 
safety risk if we don't treat them as what they are: airplanes 
in airspace.
    We have all seen photos of the damage that can be caused to 
an airplane by a bird strike in flight. Unmanned aircraft can 
be much smaller or much larger than birds, but they harbor 
added risk in that they carry batteries, motors and other hard 
metal components.
    This was a bird strike, please take a look at this, on a 
commercial airplane, and this next photo of a military 
airplane's encounter with an unmanned aerial vehicle. Hit it in 
the wing root there.
    We must not allow pressure to rapidly integrate UAS in into 
the NAS to rush a process that must be solely focused on 
safety. Standards and technologies must be in place to ensure 
the same high level of safety as is currently present in the 
NAS before a UAS RPA can be authorized to occupy the same 
airspace as airliners are operating in areas where it might 
inadvertently stray into airspace used by commercial flights.
    We also need to make certain that UAS pilots are properly 
trained and understand the consequences of possible 
malfunctions.
    Now, I knew I would be speaking before you today, so I went 
online last Thursday and purchased this quadcopter for the 
committee for just a few hundred dollars. I received it 2 days 
later, and as the marketing promised, it was ready to fly in a 
few minutes and I was flying it in my office.
    Now, this UAS can carry a camera, it has a GPS, which with 
the purchase of additional software can be used to pre-program 
a flight plan. It has the capability, this one, to fly as high 
as 6,600 feet for 15 minutes, and that means it could easily 
end up in the same airspace I occupy when I am on approach to 
land at Newark or at Seattle or at any other airport.
    Now, if we took this aircraft out in the courtyard 
building, it has the capability to fly from this courtyard to 
the final approach path at Reagan National Airport, and from 
the park at the end of the runway. That is Reagan Airport, that 
is that Gravelly Point Park. You can see it would be even 
easier to fly right into the aircraft zone.
    Now, a well trained and experienced flight crew is the most 
important safety component of the commercial air transportation 
system. A pilot in the cockpit of an aircraft can see, he can 
feel, he can smell, and he can hear indications of a problem 
and begin to formulate a course of action long before even the 
most sophisticated indicators verify trouble. Without a pilot 
onboard, we lose this advantage, and as a result, it is 
essential that UAS pilots are highly trained, qualified and 
monitored to meet the equivalent standards of pilots who 
operate manned aircraft.
    We also need to make certain that UAS aircraft can't stray 
into areas where it poses a hazard if the operator loses 
control, that it behaves like it is supposed to, and if there 
is a failure, the aircraft doesn't endanger other aircraft or 
people on the ground.
    If UAS is intended to be operated in civil airspace or 
could unintentionally be flown into our airspace, airline 
pilots need to be able to see them on our cockpit displays, and 
controllers need the ability to see them on their radarscopes. 
UAS aircraft also need to be equipped with collision avoidance 
capability.
    And, finally, the FAA resources are limited, and the agency 
must have a long-term sustained source of funding as well as 
realistic timelines and a systematic approach that builds the 
path of UAS integration based on safety.
    We appreciate the opportunity to testify today. We look 
forward to working with Congress to ensure that safety is held 
paramount in bringing UAS into the national airspace.
    Mr. LoBiondo. Thank you, Captain Moak.
    Mr. Kallman.
    Mr. Kallman. Chairman LoBiondo, Ranking Member Larsen, and 
members of the subcommittee, thank you for inviting me to 
testify here today.
    I am the head of business development and regulatory 
affairs for Airware, a San Francisco-based company developing 
flight control systems for commercial unmanned aircraft, 
enabling companies to use commercial UAVs to collect, analyze 
and disseminate data for a growing number of commercial 
applications around the world.
    Airware has raised over $40 million from several of the 
world's leading venture capital firms and our team has more 
than doubled over the last year.
    I also serve on the board of the Small UAV Coalition, which 
was formed earlier this year to promote safe commercial 
operations of small UAVs here in the United States.
    This is a critical time for the UAV industry and Airware. 
The Small UAV Coalition and others in the community would like 
to ensure that the United States becomes the global leader for 
commercial UAV technology development and operations while 
maintaining the safest airspace in the world.
    Today I will focus on three key issues for this 
subcommittee: one, the current state of UAV technology and 
potential implications in a variety of industries; two, the 
need for a risk-based approach to UAV regulations; third, the 
effective current and expected regulations on U.S. businesses.
    First, the UAV industry is one the fastest growing markets 
here in the United States. Many here today may be familiar with 
the small consumer UAVs used for personal enjoyment or 
photography, but I would like to focus on the commercial-grade 
UAVs which are tackling some of the biggest problems across a 
variety of industries.
    Commercial UAVs are being used for disaster management, oil 
and gas exploration, search and rescue, inspection of wind 
turbines, and surveying of crops. These UAVs are equipped with 
many technological features to ensure safety and reliability of 
operations, such as geo-fencing systems, which keep a UAV 
within certain altitude and distance limits as well as away 
from sensitive areas. Also, contingency management systems, 
which in the case of an issue onboard the aircraft, enable the 
UAV to automatically return to a safe landing location.
    These types of technologies are developing at an 
increasingly rapid rate and are enabling safe operations around 
the world today. In addition, NASA's also working to develop a 
UAS traffic management system to provide a means for safely 
managing a lot of these small systems.
    Through my past experience working at the FAA, I understand 
the challenge in regulating this new and revolutionary 
technology in the United States, but there are steps we can be 
taking to begin to open up operational environments now. Most 
commercial UAV operations will take place below 400 feet, 100 
feet below the typical minimum safe altitude of 500 feet for 
manned aviation.
    This brings me to my second point. We must take a new, 
risk-based approach to regulating UAVs. For example, a very 
small aircraft operating over a remote farm field at 300 feet 
would be subject to minimal regulatory requirements, whereas a 
larger aircraft operating over populated areas would require 
highly reliable avionics, additional training, geo-fence 
technology, and fail-safe mechanisms, like a parachute. These 
are the types of risk models being used to allow commercial 
operations in Europe today, including France.
    I am pleased that the FAA recently stated its intentions to 
shift to this type of model, I applaud them for this, but the 
critical question is how quickly can it be implemented?
    Finally, I would like to discuss the effect of delayed 
regulations on U.S. businesses. As I mentioned, France allows 
low-risk commercial applications, as does Canada, the United 
Kingdom, Australia, and many other countries. The United 
States, typically a leader in aviation, is one of only a few 
countries that currently prohibits commercial UAV operations, 
except pursuant to an exemption. While we wait, small and large 
businesses in the United States are moving UAV testing and 
operations abroad, where regulations are more advanced.
    Delayed and overly restrictive regulations aren't just 
slowing the growth of the UAV industry. Many of the largest 
industries and corporations in America see this technology as 
key for remaining competitive in the global marketplace.
    Airware has raised a strategic investment from one of the 
largest corporations in America, General Electric, who could 
use UAVs across many of their different business units.
    The Farm Bureau has also recently noted that U.S. farmers 
will not be able to keep up with foreign competitors if they 
are not allowed to use the same technology.
    UAV technology will have a major impact on our economy. In 
the first 3 years of integration, conservative estimates 
include creating more than 70,000 jobs and adding $13.6 billion 
into the economy. With each year of integration delays, the 
U.S. loses more than $10 billion in potential economic impact. 
We want the jobs, economic benefits, and core intellectual 
property created from this work to be here in the United 
States.
    We know that no matter the outcome today, UAV technology 
will create jobs, it will save lives, and it will grow the 
economies of those countries with the foresight to act. The 
United States is poised to lead the way for this growing and 
game-changing industry. We have the talent and the workforce to 
create the technology needed to safely integrate into the 
world's most complex airspace. Let's act quickly before major 
opportunities are lost.
    Thank you. I look forward to answering your questions.
    Mr. LoBiondo. Thank you, Mr. Kallman.
    Dr. Roy, welcome.
    Mr. Roy. Chairman LoBiondo, Ranking Member Larsen, Chairman 
Shuster, and members of the subcommittee, thank you for the 
opportunity to appear before you to discuss the unmanned 
aviation industry in the United States.
    I am a professor in the Department of Aeronautics and 
Astronautics at MIT. I lead a research program on unmanned 
aerial vehicles, or UAVs, with a focus on unmanned flight in 
urban, civilian, or populated environments. Most recently, I 
worked to Google to found Project Wing, a UAV-based package 
delivery system. I returned to MIT full-time in September of 
this year. In this testimony, I am speaking today solely for 
myself, and cannot speak for either MIT or Google.
    My main message today is that the U.S. does lead the world 
in UAV development, but both testing the next wave of 
technology needed for commercial UAV applications and training 
the next generation of engineers, both are more difficult in 
the U.S. than in other countries. Let me explain further.
    Firstly, the issues around small UAV commercialization are 
quite different compared to large, primarily military, UAVs. 
Large UAVs are as safe and as reliable as manned aircraft. The 
U.S. is the unquestioned leader in this space, so I am going to 
focus today on small UAVs for civil use.
    The vast majority of small UAVs are basically toy aircraft, 
such as model airplanes or quadrotor helicopters. This current 
generation of small UAVs exist because advances in technology, 
such as computers, GPS receivers or batteries, leading to 
smaller, cheaper UAVs that are easy for anyone to fly.
    There are many companies proposing to use these 
technologies for commercial use, but right now most commercial 
vehicles can only fly simple missions, generally with the same 
reliability as a toy. A lot of example uses have made the news 
in this country and other countries, but are for the most part 
prototypes or vaporware.
    In reality, the current civil UAV markets around the world 
are tiny, only hundreds to a couple thousand vehicles at best. 
There are real technology gaps limiting the growth of UAVs.
    The recent FAA call for a center of excellence for unmanned 
aircraft systems is a pretty good roadmap for what technology 
is needed for growth, but let me give you some examples. Most 
people know what it is like for the GPS in their car to get 
confused. This can and does happen to UAVs too. The vehicles 
need to have sensors and algorithms to let them know where they 
are at all times. UAVs need to know about ground obstacles and 
aircraft around them and how to avoid collisions.
    We need radio spectrum and new radio technologies that 
ensure the pilot in command can control the vehicle at all 
times.
    As the number of UAVs grows, the air traffic management 
infrastructure must grow alongside in order to coordinate the 
large number of UAVs flying through the National Airspace 
System at any altitude.
    Lastly, an unmanned vehicle only makes sense when the 
operational cost is less than a manned aircraft. Onboard 
vehicle intelligence is needed to drive down the human labor 
costs in more applications.
    My point is that another wave of technology is required to 
scale up to products for imaging, agriculture, emergency 
response or package delivery.
    U.S. researchers and companies absolutely lead in these and 
other technology areas. We do have a demonstrated track record 
in autonomy, algorithms, sensors and communication, but there 
are hurdles.
    Firstly, from the Wright Cycle Exchange 100 years ago in 
Ohio, to Hewlett-Packard, to Apple, the creation myth of some 
of the most successful technology companies in the world is the 
small team of investors tinkering in a garage. The point is not 
the garage itself, but it gives the ability to test anywhere 
that is safe, and this massively accelerates the development 
cycle. Unfortunately, it is much harder to test UAV technology 
in the U.S. than in other countries. It is not impossible, the 
FAA does have a number of authorization mechanisms, but there 
is a considerable bar to enter for people who just want to work 
on the technology.
    The current processes might be right for authorizing a UAV-
based pipeline inspection service across the length of North 
Dakota, but they are onerous for a two-person start creating 
basic technology.
    Unfortunately, there isn't a single set of rules or 
procedures I can point to that can be adopted from another 
country that would work here, but there may be ideas to be 
learned. For example, a clear definition of legal test flight 
instead of a case-by-case approval process will let engineers 
know where they can literally set up their garage and start to 
work.
    Secondly, and perhaps most importantly, the U.S. position 
of leadership depends on our ability to train engineers and 
scientists with the skills necessary to develop the requisite 
technologies. There are a growing number of universities 
teaching UAV technology to undergrads.
    To learn the foundations of UAVs requires flight, requires 
real flight. While some institutions have access to COAs or are 
near one of the approved test sites, there are too few and the 
cost is substantial. The same processes that inhibit access to 
test areas limit how our educational institutions provide 
training in UAV technology.
    Furthermore, the support for basic research in UAV 
technologies is diminishing. Much of the progress in unmanned 
vehicles in the U.S. has been funded by forward-thinking 
program managers in ONR, ARO, AFOSR, DARPA and NASA. These 
program managers have not only funded the technology to enable 
UAVs, but have funded the students who write software that is 
running on UAVs today. It is these students that are going to 
solve the technology challenges. Universities outside the U.S. 
are acting both as training grounds for a generation of UAV 
researchers and as incubators for UAV companies.
    Let me conclude by saying that the U.S. is not currently 
lagging other countries regardless of the publicity around 
prototype demonstrations. The same technical hurdles will need 
to be overcome in any country before commercial UAVs become a 
reality of everyday life; nevertheless, there are issues and 
constraints in this country that may allow other countries to 
overtake the U.S. both in technology development and in 
training the generation of engineers required to carry out that 
development.
    Thank you very much for this opportunity.
    Mr. LoBiondo. Thank you, Dr. Roy.
    Chairman Shuster.
    Mr. Shuster. Thank you, Mr. Chairman.
    Thank you all for being here. We appreciate you bringing 
your expertise here, but I think it is important to point out 
that on this subcommittee, on the full committee, we have 
members that have expertise, we have pilots on this 
subcommittee. And I think I got them all down here: Congressman 
Graves is a pilot; Congressman Hanna; Scott Perry, Congressman 
Perry is a helicopter pilot, but a pilot; we are going to be 
joined next Congress by Congressman Rokita, who is a pilot; and 
Congressman Jeff Denham, when he served in the Air Force, was 
an aircraft mechanic; and our counsel, Naveen Rao, is a pilot. 
So we have a lot of expertise here, a lot of folks that 
understand what you are saying, and so I think it is going to 
be important as we move forward, listening to you, but 
listening to the experts that we have here on the subcommittee 
is very, very beneficial to us, and I am happy that they are 
here and with us and able to help us, guide us through this.
    The first question to Captain Moak, in your written 
testimony, you stated that commercial UAS operators should hold 
a commercial pilot's license and instrument ratings. And we 
have heard that the skills to fly UAS are different, 
significantly different, from those to fly a passenger jet. 
Some parts of the curriculum really seem to have little 
relevance to flying UASs. For example, UAS operators need to 
master stall and recovery techniques in a Cessna if they plan 
on flying a quadcopter. So what would be the relevance there, 
how would it benefit safety, and is there a scientific basis 
for your recommendation?
    Mr. Moak. So even on another committee I sat on, we have 
had the Air Force, where they were working--initially all their 
UAS pilots over the last several years were coming out of the 
pilot pipeline, but as the need for more UAS operators for U.S. 
Air Force increased, they set up a separate UAS track, which 
you may be familiar with. In that track, they do go through all 
the all the basic skills of flying, for a couple reasons: one 
is to understand when they are in the airspace, and the other 
is to make sure they are operating the UAS properly. So the Air 
Force has briefed us on that. We think it is a good model.
    With what the FAA has been doing, treating and--treating 
these as an airplane and go through--going through a process of 
certificating the aircraft, certificating the operator, the 
person trying to operate it, the company, and then 
certificating the pilots, OK, and then monitoring and oversight 
of all that, I think, is one of the precepts, the foundations 
of having a--continuing with a safe national airspace.
    Mr. Shuster. And so----
    Mr. Moak. On your specific on should they----
    Mr. Shuster. Cessna.
    Mr. Moak [continuing]. Be able to recover from a stall or 
each of that, I think there is room for that in any curriculum. 
I agree with you on that. I just think we need to be focused on 
that safety part of it.
    Mr. Shuster. All right.
    Mr. Moak. Yes, sir.
    Mr. Shuster. So to modify it, you are not opposed to that 
if it doesn't make sense. OK.
    Mr. Moak. Absolutely.
    Mr. Shuster. The second thing is that we have got some 
reports from newspapers and other media sources that are 
leaking out some of the proposed rulemaking. And this question 
is to Captain Moak, Mr. Kallman and Mr. Roy. There appears to 
be a rule not to be permitted to operate beyond the line of 
sight. And if that were the case, my concern is it would 
significantly reduce or almost eliminate the benefits that a 
UAS system brings to us. So can you comment on beyond the line 
of sight?
    Mr. Moak. Right. So you have seen the--there are news 
stories all the time, but there have been two recent ones, one 
at JFK and one at Heathrow. And this would be a different 
hearing if this would have went down the engine of an aircraft. 
It would have been, you know, catastrophic, and we would have a 
different hearing today.
    I think what is important is if it is going to be operated 
in that--in that method that you are talking about, there needs 
to be a way to have pilots that are flying be able to see it. 
And it is very difficult, if not impossible, to see this, 
because much like other things in the air, if there is not 
relative motion, your eye can't pick it up. All right?
    And on the airspace issues, for example, for helicopters, 
you know, 500 feet and below is where helicopters, Life Flight 
and lots of other planes operate. So I would just suggest this: 
if we are going to be operating it beyond line of sight in 
densely--in dense areas, you know, big sky, little airplane, 
but lots of airplanes, there needs to be a way for air traffic 
control to see it, for the airplanes to see it, for the person 
who is operating it to be able to communicate with air traffic 
control and with the airplanes in the area. And that--I believe 
with that, you could very easily operate beyond line of sight.
    And then the only other thing, and we have experts over 
here, if you are in an area that is not populated by other 
airplanes, then of course you could operate it in that manner, 
but the only thing would be what do you do with a lost link, 
which, you know, has happened quite a bit in the military.
    Mr. Shuster. Mr. Kallman, based on what Mr. Captain Moak 
said there, can you comment?
    Mr. Kallman. Thank you. I think this gets back to the 
earlier point I made on taking a risk-based approach. So in the 
case of beyond-line-of-sight operations, you would be in a 
scenario where there are higher risks, but think you can 
mitigate that through technology. So, for example, in France 
today, what they are doing for beyond-line-of-sight operations 
is they are only operating at very low altitudes, where there 
isn't general aviation traffic or commercial traffic, and they 
are enhancing it through technologies, such as cameras onboard, 
the system where an operator can actually see if there is other 
traffic in the area, to the point on lost link scenarios, they 
are utilizing technology, I mentioned earlier, for a 
contingency management.
    So in the case where you do lose link with your operator, 
you are able to pre-program in so the UAV knows exactly how to 
respond in those cases. So depending on what the area is, what 
the environment is, it knows what a safe location is to return 
to. So these are the types of technologies that are already in 
place today.
    Mr. Shuster. Mr. Chairman, I wonder if you would yield me 1 
more minute so that Mr. Roy can respond to that, because I know 
he has worked with Google and MIT, and this would be 
beneficial.
    Mr. LoBiondo. Without objection.
    Mr. Roy. So my answer is very consistent with the previous 
two answers in the sense that beyond line of sight is eminently 
doable. A risk-based profile makes a lot of sense. It is more 
feasible in unpopulated environments or where you have some 
notion of what the airspace contains.
    The technology issues are very consistent. Loss of link, 
there needs to be a contingency plan. Loss of link is a 
challenge. Maintaining situational awareness as the vehicle 
returns, that is a technology question that needs to be 
addressed, but these are eminently doable.
    Mr. Shuster. All right. Thank you very much.
    For the benefit of the FAA, I hope you heard a lot. To me 
it was loud and clear. Safety is paramount, absolutely. I think 
we all agree with that. This can be done, and as we move 
forward, making sure that we are looking at the technology and 
the safety aspect. And, again, one size doesn't fit all. Thank 
you.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I am going to focus my initial questions on this end of the 
table. I know folks from my side of the aisle have some 
questions on the--for folks down here, and--but I wanted to 
talk a little bit about on the technology side.
    And is it doctor? Dr. Roy. Have you looked at the use of 
the six test sites and made any assessment about whether they 
are being used as much as they can? And if you have made that 
assessment, what would you suggest be done otherwise?
    Mr. Roy. So I--the six test sites are not my area of 
expertise, so I personally haven't done an assessment. MIT was 
heavily involved in setting up the NUAIR test site. And I got 
back to MIT this September, so been a bit busy, haven't done--
haven't looked at what is available there, but we hope to be 
flying there soon.
    Mr. Larsen. Well, given--given your research and your 
course of study, what would be an ideal environment?
    Mr. Roy. So that is a good question. One of the 
limitations, I think, is the distance with which one has to go 
in order to get to the test sites and the--I guess the onus on 
setting up operations there. In an ideal world, I describe in 
my written testimony the ability to designate local test areas 
anywhere--local flight areas anywhere as test areas, have clear 
rules so that, for instance, if you are more than 150--I am 
picking these numbers up entirely arbitrarily, but 150 meters 
from people on the ground or a ground structure and you have 
secured the airspace, then if you had the ability to do that, 
that would allow--you know, presumably you could not do that in 
downtown Cambridge, but you could go further afield to an area 
where, you know, you could take your student more easily than 
having to drive through Griffiss Air Force Base and fly.
    Mr. Larsen. Yeah. Mr. Kallman, do you have some comments on 
just generally what an ideal environment for these test sites 
would look like?
    Mr. Kallman. Absolutely.
    Mr. Larsen. Or how they would operate, that is.
    Mr. Kallman. Yeah. And I agree. I mean, I think the 
important thing for test sites is the ease of access so that 
small companies, large companies all have the same 
opportunities to go utilize the airspace. Obviously safety is 
of utmost importance, so being able to do that safely through, 
for example, issuing a NOTAM to other operators in the area so 
that they understand that there is some testing going on in 
these areas, but ensuring that these areas are able to allow 
for companies to get that approval and be able to come and 
utilize that space quickly and rapidly and at low cost to these 
companies.
    Mr. Larsen. Yeah. Well, we will talk to the test sites 
about whether that is happening as well as some of the 
stakeholders.
    You talked a little bit about the risk-based approach and 
what it would look like. Is there--is there any scenario where, 
since you are in the private sector, where you can envision a 
test-to-operation scenario where you--you know, where--like, on 
the Armed Services Committee, we sort of broke through some of 
the acquisition on certain things to sort of--you know, to 
break through the slowness of the Pentagon to act on things.
    Is there--using that model, is there a scenario where we 
can get to a test-to-operation scenario at these test sites in 
certain cases?
    Mr. Kallman. Absolutely. And I think that could be very 
valuable. And I know organizations like NASA Ames are already 
engaged in looking at things like this to allow companies to 
bring their technology to showcase what it is capable of doing 
and ensuring that it will respond safely in a variety of 
different scenarios. I think that will be very important to 
have, and I think that there should be infrastructure for that.
    Mr. Larsen. Yeah. Dr. Roy?
    Mr. Roy. I completely agree with that. I think that is 
essential, because there are going to be operational scenarios 
that can't be represented in the test sites. So, for instance, 
as the commercial application of infrastructure inspection, 
package delivery and so on, they are going to require more 
urban environments for testing. And so as we want--as we stand 
up those markets, the test-to-operation is going to be an 
important part of that.
    Mr. Larsen. Yeah. In the minute I have left, I just want to 
come down to Ms. Gilligan about--on the test sites and the 
issue of designated air worthiness representatives.
    Ms. Gilligan. Yes.
    Mr. Larsen. You have designated one for Nevada, the Nevada 
test site. What about the others, and is that something that 
test sites need to request or is FAA trying to conclude that 
they ought to have these?
    Ms. Gilligan. We have offered that as a tool, a technique 
for the test sites to be able to attract industry into those 
locations. We did it in Nevada. We have offered the training to 
all of the test sites. They have not yet offered a candidate 
for that training. We are ready whenever they are ready. And, 
after the training, the designee then has to actually 
demonstrate that they have the skill. That will be done with 
one of our engineers, and after that, the designee will be able 
to actually approve the operation of the vehicle for the test 
sites. We think that will help to enhance the attraction for 
industry to come to those test sites.
    Mr. Larsen. So is this an ODA model, essentially?
    Ms. Gilligan. At this point it is individual designees. It 
is not necessary that it actually be an organizational 
designation, because we haven't seen that level of demand. 
Certainly, if the demand expands and we think an organizational 
model makes sense, we could move to that.
    Mr. Larsen. OK. I am going to--I will yield back, Mr. 
Chairman, and look forward to the rest of the questions. 
Thanks.
    Mr. LoBiondo. Thank you.
    Ms. Gilligan, the question I am going to try to get to is 
the effectiveness interaction with FAA and the test sites. And 
there is a lot of FAA activity with UAS arena, with the test 
sites and section 333 and so on.
    Could you explain the respective roles of the FAA Tech 
Center, the test sites, the centers of excellence, cooperative 
research and development agreements, section 333 in terms of 
how they are getting us towards UAS integration? I mean, it 
seems like there is a lot of stuff out here, but we are getting 
reports that the test centers are somewhat frustrated because 
there is not the interaction that they were expecting and were 
not getting results. Can you talk about this?
    Ms. Gilligan. I would be glad to, Mr. Chairman. We have 
biweekly conferences with all of the test sites, and so I think 
we have begun to alleviate some of those early concerns.
    I do think the test sites got off to perhaps a slower start 
than we and they were anticipating as they really came to 
understand what it was that they had undertaken. I think we are 
seeing good movement there. They all have approved COAs, and 
they all have flight operations underway. We are collecting 
some amount of information from those, but, of course, the 
numbers are still small, because they really are all just 
getting underway.
    I believe the improvement that Mr. Larsen referred to with 
the ability for the test sites to have a designated 
airworthiness representative who can work with companies that 
want to use the test sites will go a long way to increasing the 
appeal of the test sites to some of the companies that my 
colleagues on the panel have talked about, who want to do 
research in these areas. So we think that will be an important 
improvement as well.
    Mr. LoBiondo. So does the FAA have a plan to use these 
assets in a coordinated fashion?
    Ms. Gilligan. For FAA research, we are looking at what our 
research needs are, and to the extent the test centers can help 
us fulfill those needs, and to the extent that we have funding 
for that research, we will certainly look to use the test 
sites. Right now, FAA has not placed research at any of the 
test sites.
    These test sites, as I say, were set up in accordance with 
the intent that we saw in the act, which was to allow industry 
to complete research. As my colleagues have said, right now it 
is difficult for industry to have access to airspace for the 
purposes of research and development. We believe the test sites 
offer the perfect opportunity to meet those research needs here 
in the U.S., and that is why we are working with the test sites 
to expand their ability to attract that kind of research.
    Again, if FAA needs can be met at the test sites, we will 
certainly look to fund projects at those test sites as well.
    Mr. LoBiondo. So when you say you are working with the test 
sites to expand that opportunity, can you tell me a little bit 
more about that?
    Ms. Gilligan. Again, we are trying to keep them well 
informed about what they are able to do under the agreements 
that they have with the FAA. We now have individuals actually 
from the FAA Technical Center who will be traveling to each of 
the test sites to work with them more closely on what it is 
that we might be looking for to be able to get research data 
through the test sites. Once the test sites take advantage of 
the ability to have a designee on site, we think that that will 
really open the doors for industry to take advantage of the 
test sites.
    Mr. LoBiondo. Can you tell us a little bit about how you 
are engaging with U.S. companies that might want to do research 
and development here in the U.S. versus overseas and--what I am 
after is about some of these media reports that companies are 
frustrated. Are you interacting with these companies, or how 
are we trying to keep them to keep the jobs here, is what I am 
getting at?
    Ms. Gilligan. Yes, sir. The staff in our UAS office are 
interacting with industry constantly. There is a large annual 
conference, for example, this week out in New Mexico. We are 
well represented there and we are reaching out not only in 
public sessions, but in private meetings with manufacturers to 
try to understand what are their needs and whether and where 
they can meet those needs.
    In terms of the recent newspaper report that you saw, we 
have been working with that applicant. They are looking at both 
an exemption under part 333 as well as what we are 
recommending, which is that they seek certification for their 
vehicle under our special certification rules for the purposes 
of research. And we think that we can actually enable them to 
accomplish what they need to accomplish here in the U.S. 
through the test sites and through their own certification.
    Mr. LoBiondo. Well, there are obviously a lot of areas of 
interest here that we as the committee want to try to keep our 
fingers on. But while keeping safety paramount, the economic 
opportunities in an economy that can desperately use it is also 
at the top of our list. Thank you.
    Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Ms. Gilligan, there is this inanity of the Antideficiency 
Act where you can't give direction to someone utilizing a test 
site because they are providing an uncompensated service. Have 
your lawyers really looked at that to see whether or not there 
is a way around that, or are we going to need to legislate to 
fix that?
    Ms. Gilligan. Our lawyers have looked at it, sir, at this 
point, and that is the advice that they have given us. I 
certainly will ask them to look more closely to see if there is 
some alternative. But at this point, we are, again, supporting 
the test sites by trying to make them attractive to industry 
which really is the party that is interested in the research.
    Mr. DeFazio. Right. And I have also heard from some who use 
the test sites that there is quite a bureaucratic process that 
comes in. And if you want to run one flight you have to file 
all these papers, and then you want to modify something and run 
another, you can't just like do it. You can't just say, well, 
we are going to change eight parameters and we are going to do 
another flight.
    Ms. Gilligan. We are working with the test sites. We have 
actually asked them to come in with a proposal for what we are 
calling a broad co-authorization. They are working on that 
proposal so that we can start to address some of these 
concerns.
    Mr. DeFazio. Right. I mean, you have got the test site, you 
know, we will get all those parameters in place, and then 
someone comes there and says, oh, well, come back and another 
30 days if you want to run a little modified operate. They 
should be able to do it on a test site, be able to do multiple 
operations with different parameters would be useful for your 
people to observe. It would be useful, obviously, for their 
development or greatly facilitate things. So I hope that we can 
do that very quickly.
    Why aren't there more test sites? We limited it to six, but 
why couldn't we have more? I mean, we just limited it to six. 
Is there any reason why we couldn't have more test sites? It 
doesn't cost you anything, right?
    Ms. Gilligan. Well, it does cost us in----
    Mr. DeFazio. In terms of personnel monitoring, yes, et 
cetera.
    Ms. Gilligan. Yes. We have people who work very closely 
with the test sites, and so there is a resource----
    Mr. DeFazio. Yeah, but I don't consider them very well 
geographically dispersed. There is a lot, I mean, as the point 
was made down here, for a small startup to have to travel 1,000 
miles to a test site. That is another thing we ought to look 
at.
    Are we seriously pursuing a risk-based approach, which just 
makes so much sense to me, living in the West and knowing that 
there are vast areas with agriculture where you could be 
operating safely and there are no potential conflicts or 
virtually none.
    Ms. Gilligan. Yes, sir. We are using a risk-based approach 
as we look at each of the 333 requests for exemption, for 
example, to make sure that we understand the level of risk and 
what limitations need to be added to it. I think one of the 
panelists referred to it. We do have applicants who want to 
actually certify the systems, and we are using the same risk-
based approach there. We are looking at our certification 
rules, and, with the applicant, we are looking at the risks 
that need to be addressed by design standards and what we can 
pick from the standards that exist right now for----
    Mr. DeFazio. Right. Well, geographic makes a lot of sense 
as a starting point for risk-based approach, in terms of 
density of operations, proximity to secondary tertiary, general 
airports, you know, critical airspace, whole different problem. 
So I hope you are seriously working on that.
    There is one other question to you, and that is, the staff 
has provided something they say that in the case of the film 
industry that after they got the section 333, they have to get 
a separate operating authorization which has not yet been 
granted. So----
    Ms. Gilligan. Yes, they need approval to operate in the 
airspace, and we need to be able to put out a notice to airmen 
where the operations are occurring. I believe all but one of 
them have now gotten that approval for at least one location.
    Mr. DeFazio. OK.
    Ms. Gilligan. But we agree that under the exemptions 
process, we might be able to make that more efficient as well. 
We are looking closely as how we could do that.
    Mr. DeFazio. OK. And this is to the panel generally or 
maybe that end. I mean, transponders, how small can a useful 
transponder be these days?
    Mr. Kallman. Some of the smaller transponders that can be 
used now in UAVs can be right now about the size of a cell 
phone, maybe even smaller.
    Mr. DeFazio. A what? Cell phone?
    Mr. Kallman. Yeah, about cell phone size. So those are some 
of the smaller systems. There is still some cost associated, 
but I think it could be a helpful technology when you are at a 
higher altitude when there could be other traffic in the area.
    Mr. DeFazio. Yeah. We said over a certain altitude get out 
a transponder. In certain kinds of critical airspace, you have 
got to have a transponder. I mean, because right now these 
things are invisible----
    Mr. Kallman. Yeah.
    Mr. DeFazio [continuing]. Through our crude radar systems. 
So that is correct.
    OK. And then this lost link. I mean, that has been a 
problem with the military. You know, you think you have got 
that nailed in terms of if you have the geospatial restrictions 
and that is all somehow programmed in, and these things can 
find a safe harbor point remotely and they know they have lost 
a link so they are going to go to that point?
    Mr. Kallman. Uh-huh. Typically how that would work is the 
manufacturers of the vehicles know what a safe, you know, 
amount of lost link time is. And, for example, they can specify 
in certain applications where lost link is absolutely critical, 
and if there is any sort of lost link, it needs to be 
immediately returned to the landing location in a way that is 
safe.
    In other cases, a lot of these systems are so highly 
autonomous that interruptions in the link may not be as 
important if it is in an area where it is controlled. So it is 
all depending on the risk of the situation, and you can 
actually program a lot of that into the actual avionics of the 
system.
    Mr. DeFazio. OK. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to follow up on some of what you were just sharing, 
Mr. Kallman. You know, you talked a lot about technology and 
where we are. You know, we see an aircraft sitting in front of 
Captain Moak there. Is it possible to put in the type of 
technology, or can you expand on the types of technology that 
would increase safety but yet not require an aircraft license 
as the gentleman to your right is advocating that would keep us 
safe? What other technologies are out there?
    Mr. Kallman. Yes. So I mentioned two very important ones: 
The geo-fence technology, which is very common in the industry 
and can be used on vehicles as small as the ones you see here; 
the contingency management functionality, it gets to a lost 
link; also, loss of GPS functionality so that should the 
vehicle no longer be able to make itself aware of where it is, 
it knows how to land safely.
    There is a lot of really great research going on right now 
here in the United States and other parts of the world that 
Professor Roy talked about on sense-and-avoid technology. I 
think that is going to be a critical piece for enabling a lot 
of these higher risk applications at higher altitude with, you 
know, other traffic in the air, and there is already very 
significant advancements in that area as well.
    Mr. Meadows. So how confident are you that if we do not 
change our regulatory scheme that Canada, Australia, Europe 
will own this type of technology, and on a scale of one to ten 
being most confident that if we don't change things that we are 
going to lose out?
    Mr. Kallman. I would say I am pretty confident, because we 
are seeing a lot of the highly skilled manufacturers in Europe 
really surpassing a lot of the U.S. companies because of their 
ability to go and iterate, do very frequent testing, do a lot 
of research on their products where they are able to actually 
go two or three generations in their products where a U.S. 
company may only be able to do it once. So we are starting to 
see some of that.
    Mr. Meadows. So they are actually doing a lot more testing 
in Europe or Canada or other places than we are here?
    Mr. Kallman. So it is because a lot of the main 
manufacturers there have easy access to testing facilities.
    Mr. Meadows. So Ms. Gilligan, let me come to you. From an 
FAA standpoint, obviously, we have some six sites that we are 
talking about, but if there is so much work going on in these 
foreign countries, are you gathering data in terms of 
commercial activity from them, successes, failures, or are we 
just being more focused on the United States and not learning 
from their mistakes or their successes?
    Ms. Gilligan. No, sir. There is a lot of coordination at 
the international level, both in terms of what we as an 
industry should be establishing as the standards for these 
operations, as well as sharing experiences seen around the 
world. But, I do want to comment on the vast differences in the 
complexity of our airspace and our aviation system over some of 
the other countries where there is some easier access.
    We have 10 times the number of registered airplanes than 
our friends to the north. We have multiple times the numbers of 
operations----
    Mr. Meadows. And that is without a doubt, but as Mr. 
DeFazio is talking about, there are certainly areas where the 
risk would be minimal. I have learned today that I probably 
violated a Federal law by taking pictures of a golf course. 
Now, there was more danger of somebody getting hit by a golf 
ball than there is from the drone that flew over it to take the 
pictures. But as we see that, can we not look at it on a risk-
based assessment and really open up the testing so that our 
airline pilots can feel comfortable with what we have but yet 
not keep it so confined?
    Ms. Gilligan. We are working closely with the test site in 
North Dakota, for example, with just that in mind, recognizing 
that there is lower level of air traffic over most of the State 
of North Dakota and they are looking at how they can broaden 
access for that test site. So yes, sir, we agree that there are 
areas where this can safely be accomplished, and we are looking 
at working with the test sites on how we can expand that.
    Mr. Meadows. So have we implemented any recommendations 
that we have received from foreign countries that would 
actually help alleviate some of this, or are we just gathering 
data?
    Ms. Gilligan. I am not aware that we have recommendations 
from foreign countries that would address this, but we are 
learning from their experience and looking at how we----
    Mr. Meadows. If we are learning and not implementing, that 
is not doing any good, is it?
    Ms. Gilligan. I am sorry, what I was going to say is we are 
learning from them and looking at how we can implement what 
they have learned safely here in this system. We continue to 
look for ways to do this safely.
    Mr. Meadows. All right. I thank you, Mr. Chairman. I yield 
back.
    Mr. LoBiondo. OK. Thank you, Mr. Meadows.
    I want to thank the Members for watching the clock. You may 
have noticed Mr. Larsen and I kept ourselves on the clock. We 
have a lot of folks who want to ask questions so I appreciate 
that.
    We will now go to Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. I represent Las Vegas, 
so there is a lot of enthusiasm in Nevada for the development 
of drones or UAS. We have got a lot of open space. We have got 
Creech Air Force Base. We have got a very creative gaming 
industry that wants to provide bottle service by the pool with 
these things. I mean, the potential is great. We applied to 
become a test center. We got that. I was supportive of that. We 
have been working on it. But the enthusiasm is starting to wane 
because that test site is not producing like we thought it 
would.
    Now, I hear Ms. Gilligan being positive about it, but the 
things that I hear from people who have briefed me from Nevada 
are more in line with what Dr. Dillingham pointed out. They 
just don't think it is getting off the ground, so to speak. And 
I have heard Ms. Gilligan say about three different times, ``We 
are working on this so we can start to address some of the 
concerns.'' Well, that doesn't give me a lot of comfort because 
you have been working on the rule for such a long time, I don't 
think working on it address the concerns is going to get us 
there in time to be competitive. I don't know why business 
wouldn't just go test in Canada instead of going to one of our 
test centers.
    Seems to me there are three problems that I hear over and 
over from the different folks from Nevada who come and talk to 
me. One is, they don't know what information should be 
collected. It has just not been clear to them what data is 
needed, how to put it together, what procedure should be 
followed. Now, I hear Dr. Dillingham say you are working on 
establishing that, but there is no timeframe for when that is 
going to be done so that could be--who knows when that might 
be.
    Second problem that they seem to have is this speeding up 
the COA process. We heard some reference to that. You have to 
do it over every single time, takes so long. I wonder why we 
couldn't maybe prioritize the COAs for the test sites over 
others because that seems to be where we want to put our 
emphasis.
    Third, the problem of intellectual property, protecting 
industrial secrets, so to speak, of companies that come and 
test there that have to give all this information to the FAA 
and the public. I just wonder if you would address some of 
these questions, Ms. Gilligan; and, Dr. Dillingham, would you 
give us your perspective on it?
    Ms. Gilligan. Yes, ma'am, I would be glad to. If I could 
start with the last one first. That is why we are very pleased 
to see that Nevada has stepped up to begin the approval process 
for a designee. We believe, and I think they believe, that 
using a designee will allow them to bring industry into the 
site without having to jeopardize the intellectual property of 
the folks who want to work at that site. So we think that is an 
important step forward.
    I believe the approval for that designee should be 
completed this month. And so I think with that, the test site 
will see that they can now sort of market that they have the 
ability for industry to bring their research projects to this 
test site and not put at risk intellectual property, which was 
a concern earlier on. So I think that is an important 
improvement, and we applaud Nevada for stepping out first to 
take that on.
    In terms of the COAs, we do prioritize the requests. All of 
the test sites have approved authorities now for airspace. 
There are some that are still pending. We are, again, trying to 
work through those as quickly as we can, because we agree with 
you; the test sites have been designated as a location where we 
can take advantage of our ability to continue to integrate UAS 
safely. So we are pursuing that as well.
    And I am sorry, I forget the first one.
    Ms. Titus. I have forgotten the first one myself. What 
information should be collected?
    Ms. Gilligan. The data. I am sorry, yes. Again, we saw 
these sites initially and primarily--and continue to see them 
primarily--as a place where industry can go to do the research 
and development that they want to do, the work that some of my 
colleagues here on the panel have talked about. In terms of 
what data the FAA needs, we now realize that that is a valuable 
piece of information for this test sites to have.
    With the applications for the Centers of Excellence, we 
have identified the research needs that the FAA has, and, 
again, in our biweekly conference calls with the test sites as 
well as now with the visits that will be made by our staff from 
the Technical Center, we are going to be working closely with 
the test site operators to make sure is that we and they 
understand what could be helpful to FAA based on the work that 
they are seeing at their test sites. So we will be----
    Ms. Titus. Dr. Dillingham.
    Dr. Dillingham. Well, Ms. Titus, you hit on all the key 
points, the same stories that we have been hearing from the 
test sites. We have had the opportunity to interview half of 
them and visit some of the test sites and those are the key 
issues.
    I think in terms of increasing their value and their 
capacity to input, I think Ms. Gilligan, as FAA fulfills those 
things that Ms. Gilligan talked about, that will go a long way. 
But I think sort of key to this is something that Mr. DeFazio 
said about looking at this antideficiency law and seeing is 
there a way that funds could be made available to pay for 
research or support research at the test sites.
    And also, in terms of the idea that we only have six test 
sites, I mean, our information suggests that in Canada, for 
example, they are ready to designate a very large airspace up 
to 18,000 feet for testing beyond visual line of sight. So 
perhaps as we move towards the next stage of this, that not 
only additional test sites and maximum use of the current ones 
that we again think in terms of this risk-based approach to it.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman. I appreciate the 
opportunity to question. I don't sit on this subcommittee, but 
I have a great interest in it.
    From the context of safety juxtaposed with the industry and 
the things that we are missing out on, I think, as well as the 
time it has taken to come by the rule, my mindset is many, but 
I am just looking at an article in the local paper. On November 
14 of this year, which is not too long ago, at 4:30 in the 
afternoon, on a Wednesday, so it is not on the weekend, an EMS 
helicopter flown by a guy that I used to fly with in the 
military at about 600 or 700 feet AGL encountered a UAS about 
50 feet away from the aircraft and, you know, did a pretty 
strong evasive maneuver to make sure that he didn't hit the 
aircraft.
    Now, he didn't have his patient on board. He was coming 
back from having the patient on board, but that concerns me. It 
is not just EMS, it is, you know, reports from Kennedy where 
just in the same month, on November 16, one came within 10 feet 
of a left wing of a Delta Airlines flight, which is concerning. 
And so we want everybody to--hobbyists, people that want to use 
them for business and so on and so forth to be able to access 
the airspace, but we also need to make sure that we all 
understand what the rules are and that they make sense.
    With that in mind, just one question for you, Mr. Moak. 
What is the cost of one of the engines on the airplane you fly?
    Mr. Moak. Millions and millions of dollars.
    Mr. Perry. I mean, literally over a million dollars just 
for the engine?
    Mr. Moak. Absolutely.
    Mr. Perry. So if, I mean, if it is fodded out----
    Mr. Moak. No, no.
    Mr. Perry [continuing]. If the UAS were to fly through it 
or hit it----
    Mr. Moak. Well, this is, just to be clear, because I think 
maybe this wasn't clear, this has a GPS in it. This has 
geocoding in it. It has the ability to do the things. When it 
loses lost-link, it is supposed to come back. So this going 
through an engine would do that damage that we showed in the 
earlier picture.
    And to really be clear, we are all over this risk-based 
security, risk-based approach to it, and we also commend the 
steady hand of the FAA in making sure that as we bring them on 
they are safe. But, again, we would have a different 
conversation if it ran into that EMS helicopter or it was 10 
feet closer to that Delta jet, you know. We need to be focused 
on----
    Mr. Perry. Ms. Gilligan, can I ask you a question in that 
regard. What specifications, if you can enumerate at this point 
or give us some insight, is the FAA contemplating to 
incorporate into UAS to ensure that pilots can detect and avoid 
and--pilots don't look just straight ahead in the direction 
they are flying. You have to look almost in 360 degrees. You 
can't look behind you, but--and then if you could address all-
weather capability of UAS and what the plan is for that 
anonymous operation. If that aircraft were to hit the other 
aircraft, how do we know who owned it? And then maybe 
liability, if that is germane to this current conversation?
    Ms. Gilligan. Thank you, Congressman. On the question of 
standards, we have several groups that are industry groups that 
are working on advising us on what those standards should be. 
Through the RTCA, we have had a special committee working on 
UAS standards. They expect to put forward their first set of 
draft standards around this time next year, with final 
standards due about a year after that, which is the standard 
process that we use when we are setting new design standards.
    In the meantime, we do have some applicants who have come 
in to get certification for their vehicles. They are working 
out of our Los Angeles Aircraft Certification Office. We are 
approaching the certification basis with those applicants by 
looking at our current regulations and identifying those that 
are appropriate for this kind of technology.
    As it relates to small UAS, we do have a rule that will be 
coming out shortly which will make proposals around a number of 
these areas, and we will look for comments back on those as 
well.
    Mr. Perry. For instance, lighting, a strobe or after hours 
a darkness required lighting, proximity warning or TCAS or 
something of that magnitude. And then if you could address the 
anonymous component or the ability to track who owns it if 
there is a liability issue?
    Ms. Gilligan. Again, we do not have existing standards for 
the design or manufacturer of unmanned aerial systems for civil 
use. That is why we are working with RTCA and ASTM, both of 
them internationally recognize standards setting organizations 
to define working with the industry, what should those 
standards be. And that is work that is underway and that the 
community completely agrees needs to be well developed to 
address just the kinds of risks that you are talking about.
    The other issue, which is something we are seeing now, the 
operation of small UAS by people who are able to buy them but 
who have no aviation history or experience, and who, in many 
cases, don't even realize they have a responsibility to know 
that they are operating in the National Airspace System.
    Our first approach to that is through education. We are 
doing a tremendous amount of outreach. We are working with 
manufacturers who are voluntarily putting information into the 
kit, into the box when you get it, about what those 
responsibilities are, if you are going to operate a small UAS. 
They are directing people who buy them to look at the, modeling 
the American Modelers Association Web site, which has a 
tremendous amount of safety information for the operation of 
these kinds of small vehicles.
    The dilemma is not many of the folks who buy these are 
really modelers as you and I might have understood that, which 
was about building the airplane and the joy of that. As Captain 
Moak indicates, you can now purchase small UAS very easily and 
fly them pretty quickly after you have gotten them to your 
home.
    Mr. Perry. Thank you. I yield.
    Mr. LoBiondo. Ms. Esty.
    Ms. Esty. Thank you, Mr. Chairman, for holding this hearing 
on the future of unmanned aircraft systems, and I want to thank 
all the witnesses.
    I am sort of at the opposite end of our spectrum from 
Representative Titus. I live in the State of Connecticut where 
we have some of the most congested airspace in the country. And 
so for my State, which has been long at the forefront of 
aerospace design, I see both tremendous opportunity for 
American businesses and for workers in my State, but also 
serious risk. I was at an event recently, a charity event, 
which I had my first encounter with a drone, which was a little 
hard to actually be appropriately reflective during a 
benediction while a drone was overhead. So it kind of brought 
home what the reality of that is.
    So I want to return to one of my favorite topics, which is 
NextGen, and ask several of you, and it really goes to your 
point, Ms. Gilligan, I don't think we can rely on the hobbyists 
here to take the time that modelers have always taken because 
they see themselves in the aviation space. These are people who 
are enjoying toys in some cases and don't have that sense of 
responsibility of if seagulls can take down an aircraft, what 
do we think something out of metal can do? And all it is going 
to take is one horrific accident.
    So I would like to ask you, Captain Moak, can you talk a 
little bit about how you see what we need to do in NextGen to 
keep your pilots and all of the air passengers safe in this 
country, what we need to be doing with NextGen and how quickly 
and what resources and how we need to integrate--and, Mr. 
Hampton, you are next on deck on this--about the utter 
importance of integrating both of these together, which I think 
is tremendously important. We need to move very rapidly. Thank 
you.
    Mr. Moak. OK. So we work with the unmanned aircraft systems 
groups, and they shouldn't be defined by this because they also 
have the same concerns we have of one of these causing an 
accident, all right. So the risk-based approach where we are 
working with them on, we are working with the FAA.
    On NextGen, the larger type of systems that would be in the 
airspace, there has to be a way for the pilot in the cockpit, 
if it is going to be in the same airspace to be able to see it. 
There has to be a way for our controllers, who keep the 
airspace very safe, to be able to see it on their scopes, in 
their control room.
    Currently, you know, we do that with IFF. We have ADS-B In 
and Out with NextGen coming on line, and I am confident that 
these technological challenges that we are facing here, going 
through a process, same kind of process we use to certify 
aircraft and operators, that we will be able to do that at some 
point. But right now, they are being defined by this. And what 
we have to be mindful of is, as the airspace gets more crowded, 
not less, that we have those same capabilities. When the Air 
Force comes and the NextGen Committee sits on it, their concern 
is how they are going to be integrated in the airspace, ADS-B 
In and Out and whatnot. So I think that is really the focus and 
the tie-in with NextGen, Congressman.
    Ms. Esty. Mr. Hampton, about this integration effort of 
NextGen with UAS.
    Mr. Hampton. Currently a lot of today's discussion has been 
focused on the smaller UAS. When we did our review last year, 
we noted that some UAS are operating today. Of those that are 
authorized, referred to as ``COA,'' there are about 500. DOD 
operates them now in the NAS. They are on the border, 
Albuquerque Center, Los Angeles Center. And only preliminary 
work has begun to look at the air traffic control systems and 
the adjustments that have to be made.
    In particular, the automation systems such as the $2.4 
billion ERAM system, a flight planning system, are going to 
have to be adjusted. Another one we talk about is the voice 
switch. Today, most of the discussion has been about how pilots 
talk to controllers via voice commands. Now that discussion is 
going to have to be with the person that is operating the 
system that is on the ground, not in the cockpit of the 
aircraft.
    So a great deal of work has to begin to think about how air 
traffic control systems will need to be adjusted. Some work has 
begun. It is in its infancy and that has to be done now. I 
think the planning and requirements adjustments, that is 
something that has to be done very quickly.
    Ms. Esty. And if anyone has got thoughts on the funding, 
you know, if this is appropriate to go to the industry to seek 
the resources to realize both the safety but also the 
opportunity for industry. And if anyone would care to get into 
that, I would love to hear your thoughts.
    Mr. LoBiondo. Your time is just about expired.
    Ms. Esty. Thank you.
    Mr. LoBiondo. Mr. Farenthold.
    Mr. Farenthold. Thank you very much, Mr. Chairman.
    We will start with Ms. Gilligan. We created section 333 to 
push the FAA to begin allowing small U.S. operations before 
finalizing the rule. You all stated the goal was to approve 
these petitions within 120 days; however, only 7, according to 
my figures, have been granted to date, and 60 applications are 
past the 120-day window. What is the status of these petitions, 
and can we expect to see more timely response to them, 
especially with regard to areas you have predesignated as the 
test site? It seems obvious that you can let the airmen know 
that in these areas, there is going to be a presence of UAVs, 
you can dedicate airspace to them. You certainly ought to be 
able to streamline around the test centers.
    Ms. Gilligan. Yes, sir. I am pleased to say that there were 
5 additional exemptions that were issued today, so there are 
now 12 exemptions that have been granted. But----
    Mr. Farenthold. There are 200 filed?
    Ms. Gilligan. I believe it was slightly over 160, but we 
will confirm that number for you. Having said that, we agree 
that we need to speed this up a little bit. Each of them is 
somewhat more unique than we were anticipating, but we are 
learning quickly as we thumb through this first set.
    As to the test sites, we actually believe that the statute 
intended for them to be separate from the test sites. They are 
for commercial service, which is actually not the reason for 
the test sites. The test sites are about research and 
development.
    Mr. Farenthold. Let me ask you real quick with commercial 
service.
    Ms. Gilligan. Sure.
    Mr. Farenthold. First off, I am also worried about the cat 
being out of the bag. I have got a quadcopter on my Christmas 
list, as I suspect quite a few people do. So at some point, 
there are going to be so many of these that are out without--we 
are not going to know who owns them. I mean, you can look back 
to the FCC and the walkie-talkies, they came with a card where 
you are supposed to register them but nobody did. And I think 
this is a more dangerous scenario, and it is something that I 
think you guys need to be putting a priority on. When there are 
too many of these out here capable of going, you know, beyond a 
couple hundred feet and actually being able to go up to 6,000 
feet, we have got a problem, and our failure to regulate them 
we are going to have a genie-out-of-the-bottle issue.
    So I am going to ask Dr. Dillingham: You studied this; how 
can we speed this up? I mean, things move at Internet speed 
now. These are considered tech devices. Silicon Valley gets 
stuff done in weeks not years.
    Dr. Dillingham. Yes, sir. This is a situation that, 
although we have studied, we don't have an answer before 
because, as you pointed out, we are talking about civilians, 
regular public using these kind of platforms, and there are 
already existing regulations that the modelers follow but the 
public has not adhered to it. Because I would argue----
    Mr. Farenthold. Do we have the resources to enforce that 
against, you know, tens of thousands of these that are going to 
be sold this Christmas?
    Dr. Dillingham. It is going to be a difficult or almost 
impossible task because FAA already has so many calls on its 
resources. I think what Ms. Gilligan said earlier, probably is 
one of the best steps, that is, education for the public that 
there are, in fact, rules and regulations that they need to 
follow. And when we see these public announcements of 
individuals being fined or otherwise, the FAA acting on them, 
that probably is going to have to be one of the incentives as 
well.
    Mr. Farenthold. I mean, even the existing regulations, 
assuming they were enforced, let's say I buy a quadcopter, put 
a GoCam on it and go out to my friend's ranches and film some 
deer around a deer feeder. I am perfectly legal at that point. 
I post that to my blog that has Google ads on it, all of a 
sudden I have probably crossed into a gray area of commercial 
use. And, I mean, that is a lot of fine line distinctions to 
have to educate the public about.
    Dr. Dillingham. I can't argue with that, sir. You are 
right.
    Mr. Farenthold. All right. And Ms. Gilligan, I will give 
you an opportunity to answer my question or concern that we are 
operating at the speed of the Internet, and if our regulations 
can't keep up with technology and there are so many of those 
out there, we are really going to have a dangerous situation. 
Is there a sense of urgency?
    Ms. Gilligan. Yes, sir, there is within the FAA. As I 
commented in my opening remarks, our small UAS rule has been 
delayed beyond what any of us think is acceptable, but we 
believe our balanced proposal will be out shortly and will 
start to get comment and finalize those rules.
    Mr. Farenthold. Thank you very much. I see my time is 
expired.
    Mr. LoBiondo. Mr. Massie.
    Mr. Massie. Thank you, Mr. Chairman.
    Ms. Gilligan, you mentioned that a rule would be coming out 
shortly, and Mr. Hampton, you have documented the ways that we 
are kind of behind schedule. I understand that things rarely go 
according to schedule, whether you are in the private sector or 
the public sector, but when you say a rule is going to be 
coming out shortly, to quote a colleague, is that in a 
geological time scale or in Internet speed?
    Ms. Gilligan. The proposal is under executive review at 
this point, sir, so I really can't tell you exactly what the 
timeframe is. But as I said, I think all of us who are involved 
in the project understand how important it is to get this out 
as quickly as we can.
    Mr. Massie. I would be remiss in my oversight 
responsibility here if I didn't get a date or some kind of 
commitment at this hearing so that when we are at the next 
hearing we can measure progress toward that. What are some of 
your goals in the next year?
    Ms. Gilligan. Well, for the rulemaking, the Department of 
Transportation has a Web site which shows the rule as scheduled 
for release at the end of this year. Once the rule is released 
it will go out for public comment. That period will last 
anywhere between 60 to 90 days, depending on what the community 
asks for. There is some concern that we will get a substantial 
number of comments which will delay how quickly we can get to 
the final rule, but we will certainly keep the committee 
informed of how we are progressing once we are able to publish 
the rule.
    Mr. Massie. To Ms. Esty's point earlier, how are we going 
to make sure these rules are copacetic with the NextGen? Is 
putting ADS-B in every drone, is that going to be one of the 
answers? Would that allow them to interoperate?
    Ms. Gilligan. Well, sir, I can't really comment on what is 
in the rule because it is a pending rulemaking. But, as I said, 
we have the industry very tightly involved with us in 
determining what should be the design standards for these kinds 
of platforms, when they are to be certified by the FAA. So we 
will base our decisions on what the community recommends.
    Mr. Massie. One of my concerns for drones and the 
commercial development of them is if you require something like 
ADS-B and there is no low-cost solution to that, are we 
throwing up another impediment, because the low-cost solution 
to ADS-B doesn't exist right now for private aircraft? And do 
you see any progress in that field?
    Ms. Gilligan. Well, again, the industry and members of the 
committees who are advising us know that they must address the 
risks that are posed by the ability to sense and avoid other 
aircraft and for the unmanned platform to be able to be seen by 
both controllers and pilots in the system. They are working 
hard on what exactly those technology solutions can be, and we 
are sure they will find them.
    Mr. Massie. I know you don't want to comment on a rule 
because it has not been released, but can you give us some 
indication, is it going to be risk based, or to what degree 
will you incorporate those recommendations of a risk-based 
strategy?
    Ms. Gilligan. I can tell you that we did take a risk-based 
approach. It is the approach we use now for all of our 
standards. We also look at performance standards rather than 
directing particular technology solutions, for example. Those 
are just the general policies that we follow.
    Mr. Massie. So I have got a question for Mr. Kallman, or 
Dr. Roy here. Some experts have talked about integrating 
privacy by design. You know, we are talking about safety, what 
about privacy here? This is a concern, a genuine concern that 
the larger public has, I think. Are you aware of any technology 
solutions to the privacy issue?
    Mr. Kallman. To the privacy issue, and I think it is 
important to state that privacy is definitely one of the things 
of utmost importance for the UAV industry and a lot of 
companies in it. And to your point on privacy by design, I 
think a lot of manufacturers are engaging this today and doing 
things like restricting, for example, where cameras can and 
cannot turn on and board the aircraft, protecting that valuable 
information. But ultimately, I feel that privacy is really 
independent of the type of technology that is collecting that 
information. I feel that privacy is really about what 
information is private, what information is public, and 
ensuring that we protect that independent of the different 
types of collection methods.
    Mr. Massie. Dr. Roy.
    Mr. Roy. I would also like to add that privacy is a little 
bit of a moving target and it varies from not just country to 
country, but across the U.S. as well. And it is really a 
question of expectations. I think that when we talk about, your 
suggestion of privacy technology, I think so long as the public 
understands what information is being collected and has clarity 
into that, then that will go a long way towards actually 
defining privacy.
    Mr. Massie. Quick question. I don't know if there will be 
time for an answer. But one of the things in addition to a 
ceiling that I would like to see is a floor. What is a 
reasonable expectation on your property? If something is an 
inch above the ground, is it trespassing? If it is 10 feet 
above the ground, is it trespassing? And do you have the right 
to engage a trespasser? So that is something that I would like 
to see considered along the privacy lines. I think my time is 
expired.
    Mr. LoBiondo. It has.
    Mr. Massie. OK. Thank you, Mr. Chairman.
    Mr. LoBiondo. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman. I understand, because 
of the number of folks you have and the number of folks we 
have, we will kind of go at two to your side and one to our 
side and get through this.
    I want to yield a little bit of time to Mr. DeFazio who has 
a question and then I will take the rest of the 5 minutes.
    Mr. DeFazio. I thank the gentleman and try to do this 
quickly. You know, when we see these things in the New York 
airspace, have we found anybody operating illegally who was 
putting people at risk? I mean, you have talked about some 
commercial violations. Have you caught anybody who has like put 
people at risk with one of these things?
    Ms. Gilligan. I can't make the correlation, sir, to some of 
the reports that we had and some of the cases that we have 
pursued.
    Mr. DeFazio. Right, because we don't know who is operating 
them, who owns them or anything. How about a system where we 
require registration, licensure with user fees. The user fees 
go to help you with the deficiencies in your budget and you 
vary the license according to the uses and the weight and the 
capabilities so the cost, you know, would be appropriate, so it 
is not going to be burdensome on, you know, little small--but, 
so anyway, think about that. There is no real answer now, but I 
think that is the way to go. We need to know who has these 
things, who is operating them. And, you know, people are 
putting people at risk, taking a plane down. They have got to 
be prosecuted. Thank you.
    Mr. Larsen. Thank you.
    So Mr. Hampton, the FAA UAS working group has recommended 
the integration office be placed at a higher level with the 
FAA. Have you looked at or do you have an assessment of whether 
or not you think moving the UAS integration office would help 
coordinate efforts better across the agency?
    Mr. Hampton. That is a very good question, and for industry 
that is a significant concern. At this time, I think we are 
more concerned about outcomes. And going forward in the 
reauthorization process, I think we would have to look a year 
from now and see the outcomes and whether things have advanced. 
The FAA is going to quickly move from a situation of planning 
to actual execution on a number of fronts. I think we would 
have to wait until about a year from now and see where we have 
gone with the execution of the rule, where we have gone on 
FAA's response to a number of our recommendations, such as 
developing and executing a framework for collecting data, and 
where we have come with the test sites. So I think that is a 
very real possibility.
    I am not too concerned about how FAA is organized and 
structured, but rather on outcomes, sir. And I think that is a 
very good question. The office is structured and it does a very 
good job of coordinating. A year ago we were concerned about 
staffing levels. They staffed up. We are also concerned about 
the requirements of what is important for it to actually begin 
to develop the regulatory framework and do controller training. 
We are concerned about requirements and the position of the 
office to execute plans and make things happen with a sense of 
urgency. So I think we would have to take a look at that in 
about 6 months to a year, sir.
    Mr. Larsen. All right. Just for the record, I am hopeful we 
will be done with this reauthorization well before that year is 
up.
    Mr. Hampton. Yes, sir.
    Mr. Larsen. Dr. Dillingham, from your discussion with test 
site operators and other stakeholders, do you have any thoughts 
about how test sites could increase level of participation in 
the UAS integration efforts?
    Dr. Dillingham. Yes, Mr. Larsen. In our conversations with 
the test sites, in addition to the blanket COA that Ms. 
Gilligan talked about and the appointment of the air worthiness 
director, the test sites also talked about perhaps they could 
be a part of FAA's approval process of the section 333. That 
number is going to increase, and it is a workload burden on 
FAA. We are hearing that it will be 2 or 3 years before we have 
a rule. So in the meantime, any tools that are available to 
further the idea of commercial use of UAS will certainly be 
helpful.
    Something was talked about earlier, again, is the 
development of an integrated budget that allows FAA to be more 
supportive of the test sites, as well as, again, we bring back, 
the issues around the antideficiency law that can be somehow 
dealt with so that it allows FAA to adhere to the law but also 
be supportive of the test sites.
    Mr. Larsen. Yeah. OK.
    Captain Moak, just one final question on this: How are ALPA 
pilots communicating their misses of unmanned aircraft to FAA? 
Is there a structured way to do that, and are you confident 
that every near-miss that is seen is being reported?
    Mr. Moak. So if you see one of these, you are going to take 
action to avoid it. You are then going to report it to the 
controlling authority. So if we are out in the approach 
corridor, we are going to be talking to the approach and let 
them know immediately so that they can make sure someone else 
doesn't go in the same airspace. If we are on the tower 
frequency, we would report it to tower at that time. Then once 
we are on the ground safely and have gotten to the gate, we 
have an ASAP reporting program that we work with the FAA and 
the companies with. We report it through that so that everybody 
can know about it.
    I am confident that when someone sees it we are reporting 
it; I am not confident that we are seeing them, because they 
are very small. And like I was saying earlier, we don't have 
any indication in the airplane like we do with TCAS with the 
other aircraft, and the relative motion necessary for your eye 
to be able to pick it up is difficult, especially this size, 
maybe just a little bigger. So it is a real issue. Our pilots 
are reporting them and we just need to stay on top of it.
    I would like to see us take some kind of construct on this 
type of problem that we took with the green laser problem we 
were having and we became a lot more successful on reporting 
and also prosecution of people that were pointing those lasers 
at pilots on final.
    Mr. Larsen. Thank you.
    Mr. LoBiondo. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I echo the comments that Chairman LoBiondo and Chairman 
Shuster on UAS, both from a safety perspective as well as an 
opportunity for economic growth. The briefing materials that we 
were provided by the committee cite that UAS systems will have 
an $82 billion economic impact and possibly provide up to 
100,000 jobs by the year 2025. So my questions should be viewed 
through that lens.
    I would like to start with Associate Administrator 
Gilligan. One of the benefits I see with the UAS is more 
efficiency in rural areas, like the one I represent, especially 
viewing farmland and precision agriculture could be aided by 
UAVs and we could reduce the costs of the farmers' input and 
also make sure that we have proper drainage and better 
production, better environmental impact. So one thing that can 
hamper this is a requirement, if the rule required a pilot's 
license in order for a farmer to operate a UAV.
    Can you confirm that the small UAS rule would require a 
farmer in my district to actually get a pilot's license in 
order to use one?
    Ms. Gilligan. Unfortunately, sir, because we are in 
rulemaking, I am not able to talk about what is contained in 
the rule. We are very mindful, however, of how easily UAS could 
be applied to agricultural operations. Of course, we also have 
a very active ag pilot community that we are dealing with, as 
well, who are very concerned about operating in airspace with 
these kinds of platforms. So we are looking at how we can 
address all of those safety risks and how they can be 
mitigated.
    Mr. Davis. Thank you. Please note my concern of requiring 
that, if that is going to be part of the rule.
    Dr. Roy, the FAA's slow pace may be causing our best and 
brightest to maybe leave the United States, especially when you 
look at major U.S. tech companies that have moved their 
research and development operations overseas. Do your students 
have better job opportunities outside the United States in this 
field?
    Mr. Roy. So the field is small right now in commercial 
UAVs, so the job opportunities are few and far between in the 
U.S. and in other countries. But I think you have heard from 
several people that the rate at which the opportunities are 
growing in other countries possibly is going to lead to a lot 
more opportunities. I would say that it is immeasurably small 
around the world right now, but I would worry that there are 
many more--I personally am seeing more startups, very, very 
small startups, but more startups outside the U.S. than in the 
U.S.
    Mr. Davis. Mr. Kallman, one of the major issues with UAVs 
is the flyaway problem, you know, where they lose connectivity 
and fly away. It affects consumer UAVs but also very high-end 
aircraft with the military. How do we mitigate that risk and 
how do we integrate this into our aviation system?
    Mr. Kallman. Yeah, and I think to reiterate also that 
safety again is of utmost importance, and I think with the 
flyaway issues, that is a matter of technology. I think that 
the technology is increasing at a very rapid pace. I mentioned 
earlier a lot of the functionality in a lot of these systems to 
manage a lot of issues that happen on board the aircraft, 
typically that is where you will see those types of things. You 
will lose the GPS or something along those lines, so making 
sure that systems have the ability to know how to automatically 
respond should any system fail on board the aircraft and be 
able to return it to a location that is determined safe before 
the flight. So I think those will be very, very important to 
ensure.
    Mr. Davis. All right. Captain Moak, safety is paramount on 
the flight simulators that many of your pilots use to train. Is 
there a simulation for UAVs?
    Mr. Moak. Not per se, but there is simulation for, you 
know, detect and avoid, you visually pick up something, or if 
you have a situation where you are losing control of the 
aircraft because perhaps you had to maneuver it, maneuver it in 
a manner that you wouldn't normally be maneuvering it, meaning 
you were banking it excessively and how you recover from that 
upset situation. We do have that.
    Mr. Davis. Thank you, Captain. And thank you, all, for 
being here today. Obviously, this is an issue that we should be 
able to address. We have seen unmanned aircraft fly sorties 
within the theater of war in a much smaller area than they have 
done it safely. We ought to be able to not fall behind 
countries like Canada in putting together a rulemaking process 
so that we can get commercial UAVs into the marketplace and do 
it in a way that is going to be safe.
    I have concerns too with our medical helicopters. I am in 
the flight line of my house in Taylorville, Illinois. I want to 
make sure that we have these rules in place. We can do this. So 
I appreciate your work and look forward to hearing you at the 
next hearing.
    Mr. LoBiondo. Thank you.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. I think most all the 
questions have been asked, but a couple of comments I would 
like to make, and I was pleased to hear Ms. Gilligan mention 
agriculture, because I am very concerned about that. During the 
periods between May and August, at least in the Midwest, we 
have heavy traffic at and below 300 feet that is going to and 
from the airport and that is on the site where they are 
spraying too, and it is a big concern. And there is a huge 
potential out there for UAVs and in the agriculture sector, but 
they are in that same airspace and it concerns me a great deal.
    And, you know, this comes down to, and Captain Moak 
mentioned it, it comes down to visibility and being able to see 
these things. And I don't necessarily know what the answer is. 
I don't think transponders are necessarily the answer. That 
certainly gives air traffic control visibility on them, but if 
you are on a VFR flight plan, you are not talking to air 
traffic control. You don't have the benefit of that site.
    ADS-B, you know, if we put ADS-B Out on them, obviously, 
that is going to paint them. But you have got to have ADS-B In 
to be able to, you know, read that as well. And it still comes 
down to situational awareness. And, you know, obviously the 
people that are flying the aircraft, or at least the manned 
aircraft, they have got that situational awareness.
    But just as Captain Moak pointed out, you know, a VFR 
aircraft traveling at 100 knots, right on up to our airlines 
traveling at 350 knots, and everything in between. You are 
moving pretty fast and that is awful small and it is very hard 
to see it, particularly if there is no relative motion. So I 
have got a huge concern with how we are going to move forward. 
And, you know, I hope you are--and I know you are being very 
diligent in this, and I am not so sure that we don't need to 
take a more active role in Congress as well when it comes to 
reauthorization.
    But it concerns me. It concerns me in a big way. And we 
haven't even began to talk about this safety of individuals on 
the ground when these things do go rogue and what happens to 
those folks. We are just talking about aviation and the 
potential, and I don't want to run into one. I don't. You know, 
interestingly enough, there are a lot of birds out there and we 
have bird strikes, but birds have situational awareness too, 
and they will get out of your way, for the most part. But this 
is a big concern, I guess. There is no question in that, but we 
need to move very, very carefully as we move forward.
    Mr. LoBiondo. Thank you, Mr. Graves.
    Mr. Williams.
    Mr. Williams. Thank you, Mr. Chairman.
    And I would like to thank all of you for being here today. 
Appreciate it. I am from Texas. We have got a lot of airspace 
in Texas. And my question to you would be, Ms. Gilligan, as 
companies look for economical ways to modernize their delivery 
systems, unmanned aircraft systems are looking more and more 
attractive as we learned today.
    Amazon Prime Air is currently investigating the possibility 
of using small drones to quickly deliver their packages to 
their customers. My office has met with Amazon Prime Air and 
learned that they are having some difficulties getting 
permission from the FAA to test their delivery system outdoors 
in a rural area in Washington State. Would you please give this 
subcommittee an update on Amazon Prime Air's petition for an 
exemption under section 333 of the FAA Modernization Reform Act 
of 2012 that would allow them to test the system outside here 
and in the U.S.?
    Ms. Gilligan. Yes, sir, I would be glad to. They have 
applied for the exemption, and we have worked closely with 
Amazon. We have been in regular contact with Amazon since, I 
would say, over a year ago when they began pursuing this 
project. We believe though, to some extent, that what they want 
to be able to do they can do with a research certification for 
the vehicle, and we are also working with them on taking that 
approach because we think that will fit their needs better.
    We and they are having those conversations. We know they 
are not satisfied that they have to go that path, but I am 
certain that we will reach some conclusions shortly so that we 
and they can figure out exactly how to support what it is they 
are trying to do.
    Mr. Williams. Thank you. My second question would be also 
to you, Ms. Gilligan. Looking to the future, do you see a time 
when the FAA will have an Assistant Administrator for unmanned 
aircraft systems, and if not, why, and if so, what do you think 
the FAA is doing to prepare for this change?
    Ms. Gilligan. We believe that unmanned systems are actually 
like many other of the technologies that we have brought into 
the system over the years, and so we do believe that there will 
be full integration and that that will be handled within the 
structure that we currently have. We do not see a need at this 
point for a separate organization, because, again, we need to 
make sure that the aircraft itself in those systems are 
integrated in both design and manufacture with the aviation 
system and that the operations are integrated with the 
operation of the rest of the aviation system. So that is the 
approach that we are pursuing.
    Mr. Williams. Thank you. And Mr. Chairman, I yield back.
    Mr. Petri [presiding]. Thank you. Mr. Rokita.
    Mr. Rokita. I thank the Chair for the indulgence. I am not 
on the committee yet, but I appreciate the time to ask some 
questions. I have six pages of notes here, which for me has 
been kind of an all-time record, so I can tell I am going to 
hate being on this committee.
    I thank the witnesses for their testimony. Mr. Roy, let me 
start with you. If I heard your testimony correctly, it seemed 
like you were defending the FAA process here and where they are 
at when you said, look, other countries might be ahead in terms 
of the regulatory schematic right now, but they are still going 
to incur the technical difficulties. Did I get that accurately?
    Mr. Roy. That is correct.
    Mr. Rokita. OK. So, then, those countries must be acting 
with reckless abandon or something.
    Mr. Roy. No. I don't think that is--that is true. So the--
--
    Mr. Rokita. So if that is not true, then why can't we 
follow the same path?
    Mr. Roy. So let me draw a distinction between a small 
number of flights that demonstrate a capability or provide a 
service and the--what is required in order to service all of, 
say, agriculture and the U.S. So a good example is Japan. So 
Japan is sort of a high-water mark in terms of precision 
agriculture, in that about somewhere between 30 and 40 percent, 
and the numbers are a little unclear, are sprayed using Yamaha 
RMAX helicopters. It is interesting that one model of aircraft 
is providing service for about 77 percent of all the UAV, and 
it is doing so with about 2,000 aircraft. So that is a very, 
very small number, and the effort required to actually support 
that is relatively small.
    So it is nice that Japan and the other countries have, you 
know, the regulatory infrastructure in place, the permission 
for testing, that allows companies like Airware and others to 
go and develop their technology, but the--what is required is 
another way of a technology actually scale up to the Amazon 
Prime servicing all of DC or the Boston area. And I think that 
next step is what is going to be required to really grow the 
markets everywhere.
    Mr. Rokita. OK. Thank you.
    Tangential to that line of questioning, I would like to ask 
any of you if you are aware of any actuarial studies that have 
been done. If we are talking about a risk-based approach, 
right, and you have all indicated that that is a fine approach, 
well, insurance companies all day long do studies that analyze 
this using math, right? So if we are worried about a strike, 
you know, in an--in an approach corridor around an airport, we 
could take the number of, let's say, birds that are in a square 
mile of that airport or some area, and then let's say it is 
10,000 or 20,000 or 100,000 or whatever it is, and then add the 
10 drones that would be in the area potentially at the same 
time and see what the increased percentage of risk is.
    And then we could have a discussion based on science and 
math and not what--not pictures and beliefs, because the fact 
of the matter is a bird, which does have situational awareness, 
I completely agree, but it still can be study--we still can 
determine what the risk is.
    Yeah. Captain?
    Mr. Moak. So we have procedures for birds currently. So if 
there are birds in the area when you arrive in the terminal 
area, there is the ATIS system that the controllers are putting 
bird reports out, meteorologists are putting that information 
out. You can see some large flocks of birds on your radars. We 
have procedures if we were to have a bird strike. So there is 
all kinds of procedures for dealing with birds. It is not 
preferred method to encounter a bird.
    Mr. Rokita. But not a bird near-miss.
    Mr. Moak. Pardon me?
    Mr. Rokita. You outlined a procedure for a UAS near-miss, 
and----
    Mr. Moak. Bird near-miss, we have a procedure for that. You 
report birds in the area, because you know you have another 
plane coming right behind you, and you don't want them----
    Mr. Rokita. Yeah. You report flocks of birds and that kind 
of thing on the airport and if it is--if it is in the approach 
corridor, but there is not--the detailed procedure you 
indicated for a UAS.
    Mr. Moak. There is. If you are going to hit a flock of 
birds, you are going to maneuver the airplane in a manner----
    Mr. Rokita. No. I meant you get down, you call, you--then 
you alluded to a prosecution element that was----
    Mr. Moak. You can't prosecute a bird.
    Mr. Rokita [continuing]. Inherent with the laser stuff, 
which is an intentional act, you know, so--but my question is 
about the actuary studies. Have there been any actuarial 
studies?
    Mr. Roy. So----
    Mr. Rokita. Dr. Roy.
    Mr. Roy [continuing]. For the larger aircraft, I think that 
is absolutely the case. For the small aircraft, the vehicles, 
et cetera, I think the answer is no, and there is a couple 
reasons for that: one is that we don't have good models of 
the--we don't have good failure models for a lot of the 
components; and the second thing we don't have good models yet 
for the consequences of failures. So a bird strike actually 
might be one that does exist, but for a lot of the other 
failure models, I am reasonably certain they don't exist.
    Mr. Rokita. Will they be helpful?
    Mr. Roy. They will be extremely helpful.
    Mr. Rokita. Thank you. I yield back.
    Mr. Petri. Thank you.
    If there are no further questions, I would like to thank 
all the witnesses for their testimony, and in absentia, the 
other Members for their participation in today's program. The 
subcommittee stands adjourned.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
